        National Science Foundation   •    4201 Wilson Boulevard    •   Arlington, Virginia 22230
                                  Office of the Inspector General


                                          November 12, 2009

TO:           Dr. Arden L. Bement, Jr.
              Director, National Science Foundation

              Dr. Steven C. Beering
              Chair, National Science Board

FROM:         Allison Lerner /s/
              Inspector General, National Science Foundation

SUBJECT:      Audit of the National Science Foundation’s
              Fiscal Years 2009 and 2008 Financial Statements

This memorandum transmits Clifton Gunderson LLP’s financial statement audit report of the
National Science Foundation (NSF) for Fiscal Years 2009 and 2008.

Results of Independent Audit

The Chief Financial Officer’s (CFO) Act of 1990 (P.L. 101-576), as amended, requires NSF’s
Inspector General or an independent external auditor, as determined by the Inspector General, to
audit NSF’s financial statements. Under a contract monitored by the Office of Inspector General
(OIG), Clifton Gunderson LLP, an independent public accounting firm, performed an audit of
NSF’s Fiscal Years 2009 and 2008 financial statements. The contract required that the audit be
performed in accordance with the Government Auditing Standards issued by the Comptroller
General of the United States, and Bulletin 07-04, Audit Requirements for Federal Financial
Statements, as amended, issued by the United States Office of Management and Budget.

Clifton Gunderson LLP issued an unqualified opinion on NSF’s financial statements. In its
Report on Internal Control over Financial Reporting, Clifton Gunderson LLP reported a
significant deficiency related to NSF’s contract monitoring of cost reimbursement contracts and
did not report any material weaknesses in internal control. Clifton Gunderson LLP also reported
that there were no reportable instances in which NSF’s financial management systems did not
substantially comply with the requirements of the Federal Financial Management Improvement
Act of 1996 (FFMIA). Finally, Clifton Gunderson LLP found no reportable instances of
noncompliance with laws and regulations it tested.
NSF management’s response, dated November 12, 2009, follows Clifton Gunderson LLP’s
report.

Evaluation of Clifton Gunderson LLP’s Audit Performance

To fulfill our responsibilities under the CFO Act of 1990, as amended, and other related federal
financial management requirements, the OIG:

      •   Reviewed Clifton Gunderson LLP’s approach and planning of the audit;

      •   Evaluated the qualifications and independence of the auditors;

      •   Monitored the progress of the audit at key points;

      •   Coordinated periodic meetings with NSF management to discuss audit progress, findings,
          and recommendations;

      •   Reviewed Clifton Gunderson LLP’s audit report to ensure compliance with Government
          Auditing Standards and Office of Management and Budget Bulletin No. 07-04, as
          amended; and

      •   Coordinated issuance of the audit report.

Clifton Gunderson LLP is responsible for the attached auditor’s report dated
November 12, 2009, and the conclusions expressed in the report. We do not express any opinion
on NSF’s financial statements or conclusions on the effectiveness of internal control, on
compliance with laws and regulations, or on whether NSF’s financial management systems
substantially complied with FFMIA.

The Office of Inspector General appreciates the courtesies and cooperation NSF extended to
Clifton Gunderson LLP and OIG staff during the audit. If you or your staff has any questions,
please contact me or Deborah H. Cureton, Associate Inspector General for Audit on 703-292-
4985.

Attachment

cc:       Dr. Dan E. Arvizu, Chair, Audit and Oversight Committee




                                                 II-4
                                                                                                                 



A1
                                                                                                              
 
                                   INDEPENDENT AUDITOR’S REPORT 
 
 
Inspector General, National Science Foundation 
Director, National Science Foundation 
Chair of National Science Board 
 
 
In our audit of the National Science Foundation (NSF) for fiscal year (FY) 2009 we found: 
 
    •	  The balance sheets of NSF as of September 30, 2009 and 2008, and the related statements 
         of  net  cost,  changes  in  net  position,  and  budgetary  resources  for  the  years  then  ended 
         (hereinafter  referred  to  as  “consolidated  financial  statements”)  are  presented  fairly, in  all 
         material  respects,  in  conformity  with  accounting  principles  generally  accepted  in  the 
         United States of America; 
    •	  No  material  weaknesses  in  internal  control  over  financial  reporting  (including 
         safeguarding  assets)  and  compliance  with  laws  and  regulations,  however  we  did  note  a 
         significant deficiency; 
    •	  No reportable instances  of noncompliance  with laws and regulations we tested, including 
         the Federal Financial Management Improvement Act of 1996 (FFMIA). 
 
The  following  sections  discuss  in  more  detail:  (1)  these  conclusions,  (2)  our  conclusions  on 
Management’s  Discussion  and  Analysis  (MD&A)  and  other  supplementary  information, (3)  our 
audit objectives, scope and methodology, and (4) agency comments and our evaluation. 
 
OPINION ON FINANCIAL STATEMENTS 
 
In our opinion, the accompanying financial statements including the accompanying notes present 
fairly, in all material respects, in conformity with  accounting principles  generally accepted in the 
United  States, NSF’s  assets, liabilities,  and  net  position  as  of  September  30, 2009  and  2008;  and 
net costs; changes in net position; and budgetary resources for the years then ended. 
 
CONSIDERATION OF INTERNAL CONTROL 
 
In  planning  and  performing  our  audit,  we  considered  NSF’s  internal  control  over  financial 
reporting  as  a  basis  for  designing  our  auditing  procedures  and  to  comply  with  the  Office  of 
Management and Budget (OMB) audit guidance for the purpose of expressing our opinion on the 
financial  statements, but  not  for  the  purpose  of  expressing  an  opinion  on  the  effectiveness  of  the 
entity’s  internal  control  over  financial  reporting.   Accordingly, we  do  not  express  an  opinion  on 
the  effectiveness  of  the  entity’s  internal  control  over  financial  reporting  or  on  management’s 
assertion on internal control included in the MD&A.  



Offices in 16 states and Washington, DC	 

 
                                                          II­5                                 h                 
                                                                                                                  

Our  consideration  of  internal  control  over  financial  reporting  was  for  the  limited  purpose 
described  in  the  preceding  paragraph  and  would  not  necessarily  identify  all  deficiencies  in 
internal  control  over  financial  reporting  that  might  be  significant  deficiencies  or  material 
weaknesses.    However, as  discussed  below, we  identified  certain  deficiencies  in  internal  control 
over financial reporting that we consider to be a significant deficiency. 

A control deficiency exists when the design or operation of a control does not allow management 
or  employees, in  the  normal  course  of  performing  their  assigned  functions, to  prevent  or  detect 
misstatements on a timely basis.  A significant deficiency is a  control deficiency, or combination 
of  control  deficiencies,  that  adversely  affects  the  entity’s  ability  to  initiate,  authorize,  record, 
process,  or  report  financial  data  reliably  in  accordance  with  generally  accepted  accounting 
principles  such  that  there  is  more  than  a  remote  likelihood  that  a  misstatement  of  the  entity’s 
financial  statements  that  is  more  than  inconsequential  will  not  be  prevented  or  detected  by  the 
entity’s  internal  control.     We  consider  the  deficiency  described  in  Exhibit  I  to  be  a  significant 
deficiency in internal control over financial reporting. 

A  material  weakness  is  a  significant  deficiency,  or  combination  of  significant  deficiencies, that 
results  in  more  than  a  remote  likelihood  that  a  material  misstatement  of  the  financial  statements 
will  not  be  prevented  or  detected  by  the  entity’s  internal  control.  Our  consideration  of  internal 
control  over  financial  reporting  was  for  the  limited  purpose  described  in  the  first  paragraph  of 
this  section  and  would  not  necessarily  disclose  all  significant  deficiencies  that  are  also 
considered  to  be  material  weaknesses.    However,  we  do  not  believe  that  the  significant 
deficiency described in Exhibit I is a material weakness. 
 
We  also  noted  certain  other  non­reportable  matters  involving  internal  control  and  its  operation 
that are communicated in a separate letter to NSF management.  
 
SYSTEMS’ COMPLIANCE WITH FFMIA REQUIREMENTS 
 
Under  the  Federal  Financial  Management  Improvement  Act  of  1996  (FFMIA), we  are  required 
to  report  whether  the  financial  management  systems  used  by  NSF  substantially  comply  with  the 
Federal  financial  management  systems  requirements,  applicable  Federal  accounting  standards, 
and  the  United  States  Standard  General  Ledger  (SGL)  at  the  transaction  level.    To  meet  this 
requirement, we performed tests of compliance with FFMIA Section 803(a) requirements. 
 
The  objective  of  our  audit  was  not  to  provide  an  opinion  on  compliance  with  FFMIA. 
Accordingly, we  do  not  express  such  an  opinion.    However, our  work  disclosed  no  instances  in 
which  NSF’s  financial  management  systems  did  not  substantially  comply  with  Federal  financial 
management  systems  requirements,  Federal  accounting  standards  or  the  SGL  at  the  transaction 
level.  

COMPLIANCE WITH LAWS AND REGULATIONS 
Our  tests  of  NSF’s  compliance  with  selected  provisions  of  laws  and  regulations  for  FY  2009 
disclosed  no  instances  of  noncompliance  that  would  be  reportable  under  United  States  generally 
accepted  government  auditing  standards  or  OMB audit guidance. However, the  objective  of  our 

                                                            II­6                                             
                                                         
                                                                                                               

audit  was  not  to  provide  an  opinion  on  overall  compliance  with  laws  and  regulations. 
Accordingly, we do not express such an opinion.  
 
STATUS  OF  PRIOR  YEAR’S  CONTROL  DEFICIENCIES  AND 
NONCOMPLIANCE ISSUES 
 
As  required  by  United  States  generally  accepted  government  auditing  standards  and  OMB 
Bulletin  No. 07­04,  as  amended, we  have  reviewed  the  status  of  NSF’s  corrective  actions  with 
respect  to  the  findings  and  recommendations  included  in  the  prior  year’s  Independent  Auditor’s 
Report dated November 10, 2008.   
 
The prior  year  audit  report  did  not  disclose  any  deficiencies  considered  a  Significant  Deficiency; 
however, the report did disclose that NSF was evaluating a potential Anti­Deficiency Act (ADA) 
violation  pertaining  to  a  payment  made  to  a  contractor  possibly  in  excess  of  its  related 
appropriation.  In  April  2009,  in  consultation  with  the  Government  Accountability  Office,  and 
additional  accounting  research,  NSF  legal  counsel  determined  that  NSF  had  not  violated  the 
ADA.  
 
CONSISTENCY OF OTHER INFORMATION 
 
NSF  Management’s  Discussion  and  Analysis  (MD&A)  and  other  required  supplementary 
information  contains  a  wide  range  of  information,  some  of  which  is  not  directly  related  to  the 
financial statements. We  compared this information for consistency with the financial statements 
and  discussed  the  methods  of  measurement  and  presentation  with  NSF  officials.  Based  on  this 
limited  work,  we  found  no  material  inconsistencies  with  the  financial  statements;  accounting 
principles  generally  accepted  in  the  United  States,  or  OMB  guidance.  However,  we  do  not 
express an opinion on this information. 
 
The  introductory  information,  performance  information  and  appendixes  listed  in  the  table  of 
contents  of  the  MD&A  are  presented  for  additional  analysis  and  are  not  a  required  part  of  the 
financial  statements. Such  information  has  not  been  subjected  to  the  auditing  procedures  applied 
in the audit of the financial statements and, accordingly, we express no opinion on them. 
 
OBJECTIVES, SCOPE AND METHODOLOGY 
 
NSF  management  is  responsible  for  (1)  preparing  the  financial  statements  in  conformity  with 
accounting  principles  generally  accepted  in  the  United  States, (2)  establishing, maintaining, and 
assessing internal control to provide reasonable assurance that the broad control objectives of the 
Federal  Managers’  Financial  Integrity  Act  (FMFIA), are  met, (3)  ensuring  that  NSF’s  financial 
management  systems  substantially  comply  with  FFMIA  requirements,  and  (4)  complying  with 
other applicable laws and regulations. 
 
We are responsible for obtaining reasonable assurance about whether the financial statements are 
presented  fairly,  in  all  material  respects,  in  conformity  with  accounting  principles  generally 
accepted  in  the  United  States.    We  are  also  responsible  for:  (1)  obtaining  a  sufficient 

                                                           II­7
                                          
                                                        
                                                                                                                 

understanding  of  internal  control  over  financial  reporting  and  compliance  to  plan  the  audit,  (2) 
testing  whether  NSF’s  financial  management  systems  substantially  comply  with  the  three 
FFMIA  requirements,  (3)  testing  compliance  with  selected  provisions  of  laws  and  regulations 
that  have  a  direct  and  material  effect  on  the  financial  statements  and  laws  for  which  OMB  audit 
guidance  requires  testing,  and  (4)  performing  limited  procedures  with  respect  to  certain  other 
information appearing in the Annual Financial Report. 
 
In order to fulfill these  responsibilities, we (1) examined, on a test basis, evidence supporting the 
amounts  and  disclosures  in  the  financial  statements, (2)  assessed  the  accounting  principles  used 
and  significant  estimates  made  by  management,  (3)  evaluated  the  overall  presentation  of  the 
financial  statements,  (4)  obtained  an  understanding  of  NSF  and  its  operations,  including  its 
internal  control  related  to  financial  reporting  (including  safeguarding  of  assets), and  compliance 
with  laws  and  regulations  (including  execution  of  transactions  in  accordance  with  budget 
authority),  (5)  tested  relevant  internal  controls  over  financial  reporting,  and  compliance,  and 
evaluated  the  design  and  operating  effectiveness  of  internal  control, (6)  considered  the  design  of 
the  process  for  evaluating  and  reporting  on  internal  control  and  financial  management  systems 
under  FMFIA,  (7)  tested  whether  NSF’s  financial  management  systems  substantially  complied 
with  the  three  FFMIA  requirements,  and  (8)  tested  compliance  with  selected  provisions  of 
certain laws and regulations. 
 
We  did  not  evaluate  all  internal  controls  relevant  to  operating  objectives  as  broadly  defined  by 
the  FMFIA, such  as  those  controls  relevant  to  preparing  statistical  reports  and  ensuring  efficient 
operations.  We  limited  our  internal  control  testing  to  controls  over  financial  reporting  and 
compliance.  Because  of  inherent  limitations  in  internal  control,  misstatements  due  to  error  or 
fraud,  losses,  or  noncompliance  may  nevertheless  occur  and  not  be  detected.    We  also  caution 
that  projecting  our  evaluation  to  future  periods  is  subject  to  risk  that  controls  may  become 
inadequate  because  of  changes  in  conditions  or  that the  degree  of  compliance  with  controls  may 
deteriorate.    In  addition,  we  caution  that  our  internal  control  testing  may  not  be  sufficient  for 
other purposes. 
 
We did not test compliance with all laws and regulations applicable to NSF.  We limited our tests 
of  compliance  to  selected  provisions  of  laws  and  regulations  that  have  a  direct  and  material 
effect  on  the  financial  statements  and  those  required  by  OMB  audit  guidance  that  we  deemed 
applicable  to  NSF’s  financial  statements  for  the  fiscal  year  ended  September  30,  2009.    We 
caution  that  noncompliance  with  laws  and  regulations  may  occur  and  not  be  detected  by  these 
tests and that such testing may not be sufficient for other purposes. 
 
We  performed  our  audit  in  accordance  with  auditing  standards  generally  accepted  in  the  United 
States;  the  standards  applicable  to  the  financial  audits  contained  in  Government  Auditing 
Standards, issued by the Comptroller General of the United States; and OMB guidance. 
 
AGENCY COMMENTS AND OUR EVALUATION 
 
NSF's  response to the findings identified in our audit is described in the accompanying Exhibit I. 
We did not audit NSF's response and, accordingly, we express no opinion on it. 


                                                            II­8                                            
                                                         
                                                                                                           

 
                                *********************************
 
                                                        
This  report  is  intended  solely  for  the  information  and  use  of  NSF’s  management,  the  National 
Science  Board,  NSF’s  Office  of  Inspector  General,  OMB,  the  Government  Accountability 
Office, and the U.S. Congress, and is not intended to be, and should not be, used by anyone other 
than these specified parties. 
 

A1 
Calverton, Maryland 
November 12, 2009 
               




                                                         II­9
                                         
                                                      
 
 
                                                                                               EXHIBIT I 
                                          
                          NATIONAL SCIENCE FOUNDATION
 
                       CONSIDERATION OF INTERNAL CONTROL
 
                             SIGNIFICANT DEFICIENCY
 
                                 September 30, 2009
 
                                                          
Contract Monitoring on Cost Reimbursement Contracts 
                                                          
Background and Control Deficiency Assessment Criteria: 
In  prior  years’  internal  control  reports,  we  noted  that  NSF  had  weaknesses  in  its  contract 
monitoring  policies  and  procedures,  especially  with  respect  to  cost  reimbursement  contracts. 
Even though improvements had been made over the  years, in FY 2009 NSF has not addressed the 
most  pressing  conditions  previously  reported.  The  lack  of  progress  in  these  areas,  coupled  with 
weaknesses  noted  by  the  NSF  OIG  during  various  contract  administration  reviews, and  a  report 
issued  by  GAO  on  October  30,  2009  specifically  mentioning  NSF  and  several  other  agencies 
describing the inadequate cost surveillance controls over these cost reimbursement type contracts, 
has again raised this matter to the level of a significant deficiency in internal control.   
 
The weaknesses noted during our audit are as follows: 
      1.	  Delays  in  securing  Incurred  Cost  Audits  for  NSF’s  largest  and  riskiest  contracts, and  not 
           properly monitoring the receipt, audit, and approval of Cost Accounting Standards (CAS) 
           disclosure statements. 
      2.	  Contract  oversight  procedures  are  inadequate  and  ineffective,  including  evaluation  of 
           contractor’s accounting systems prior to awarding cost reimbursement type contracts. 
      3.	  Contracting  Manual  of  policies  and  procedures  is  incomplete  for  the  administration  of 
           cost reimbursement contracts. 
 
Without  improvements  in  these  areas,  management  cannot  ensure  the  reasonableness  and 
accuracy of costs paid on contracts, especially those contracts considered “high risk.” 
 
Conditions:   
In  FY  2009,  NSF  obligated  approximately  $480  million  for  contracts  for  the  delivery  of  products 
and  services.  Of  this  amount,  $361  million  was  obligated  for  cost  reimbursement  contracts,  of 
which  $270  million  allow  advance  payments  for  services  on  programs  with  three  contractors, 
with the majority going to one contractor.  
 
The following paragraphs describe the specific conditions that exist at September 30, 2009. 
 
1.  	Incurred Cost Audits 
     Incurred  cost  audits  are  an  important  tool  that  enables  management  to  assess  a  contractor’s 
     compliance  with  financial  terms  and  conditions  of  a  contract.  For  contracts  subject  to  Cost 
     Accounting  Standards  (CAS), an  incurred  cost  audit  can  only  be  performed  with  an  approved 
     CAS disclosure statement.  
   
    In the  FY 2000 to 2004 incurred  cost audits of NSF’s largest contractor, the Defense Contract 
     Audit  Agency  (DCAA)  questioned  approximately  $56  million  for  the  five­year  period.  This 
                                                             II­10
                                         
                                                          
 
 
      audit  conclusion  was  based  in  part  on  the  contractor’s  lack  of  compliance  with  the  CAS 
      disclosure  statement  effective  under  the  terms  of  its  contract  with  NSF. Due  primarily  to  the 
      uncertainties  surrounding  the  enforceability  of  the  CAS  disclosure  statement,  approximately 
      $21  million  of  the  questioned  costs  were  allowed;  leaving  approximately  $30  million 
      unresolved, after  reviewing  and  accepting  additional  supporting  documentation  for  $5  million 
      in  direct  costs. The  impact  of  NSF’s  allowance  of  these  DCAA  identified  questioned  costs  is 
      not  clear  with  respect  to  evaluating  similar  costs  in  future  years’  audits.  The  contractor 
      provided  a  subsequent  disclosure  statement,  which  has  not  been  reviewed  or  approved.  
      Without  an  audited  and  approved  CAS  disclosure  statement  in  place  for  this  contractor, NSF 
      may not be able to collect future questioned costs for the remainder of the contract. Beginning 
      in  2005,  NSF  has  been  approving  advanced  payments  without  an  approved  CAS  disclosure 
      statement, therefore  uncertainties  remain  about  the  enforceability  of  the  disclosure  statement 
      and  the  collectability  of  any  questioned  costs  identified  over  the  remaining  term  of  the 
      contract.   
     
      NSF  has  not  obtained  these  audits  of  its  largest  contractor  since  the  last  ones  were  performed 
      for FYs 2000 – 2004. In June 2009, NSF did attempt to obtain an incurred cost audit of NSF’s 
      largest  contractor  for  FYs  2005  –  2007  with  DCAA.  However,  DCAA  informed  NSF  in 
      September 2009 that they  could not perform the  audit due to staffing limitations. NSF has not 
      explored other options to have these audits performed.  
 
      In  summary, without  approved  disclosure  statements and  the  performance  of  related  incurred 
      costs audits, NSF does not have  assurance that it  has not overpaid for services provided by its 
      largest contractors.  
 
2.   Effectiveness of Oversight Procedures   
     a)  NSF  does  have  a  program  in  place  to  perform  examinations  of  the  costs  claimed  by  its 
         three  advance  payment  contractors.  However,  the  program  is  not  sufficiently 
         comprehensive  or  risk­based.  NSF  has  contracted  with  DCAA  to  perform  Quarterly 
         Expenditure  Report  (QER)  reviews  to  assist  NSF  in  monitoring  the  contractors’  billings. 
         Two  of  these  QER  reviews  result  in  audit  opinions,  but  the  other  is  limited  to  the 
         performance  of  certain  agreed­upon  procedures  (AUPs).  For  NSF’s  largest  contractor, 
         DCAA  provides  the  more  limited  AUP  QERs  which  are  less  detailed.  Although  these 
         QERs (AUPs and opinion level work) add value, they are not a substitute for incurred cost 
         audits that do test for allowability of costs, both  direct  and indirect. An oversight program 
         based  on  these  two  types  of  QER  reviews  alone  provides  little  assurance  that  the  amounts 
         paid  were  reasonable  and  benefited  the  NSF  projects. Relying  on  only  these  two  types  of 
         QER  reviews  for  oversight  purposes  highlights  even  further  the  need  for  timely  cost 
         incurred  audits  for  high  risk  contracts.    Therefore, without  routinely  performing  incurred 
         cost  audits, NSF  does  not  have  the  information  needed  to  detect  significant  over­spending 
         on its advance payment contracts.  
      
     b)  GAO  conducted  a  performance  audit  focused  on  the  extensive  use  of  cost­reimbursement 
         contracts  by  Federal  agencies.  GAO’s  report  dated  October  30,  2009,  Contract 
         Management,  Extent  of  Federal  Spending  under  Cost­Reimbursement  Contracts  Unclear 
         and  Key  Controls  Not  Always  Used,  identified  improvements  needed  in  various  federal 
         agencies’  contract  administration.  GAO  specifically  made  the  following  observations 
         regarding NSF’s oversight and contract monitoring activities: 
                                                             II­11                                          
                                                            
 
 
          •	  The  rationale  for  using  cost­reimbursement  type  contracts  was  unclear  or  not 
              documented. 
          •	  There  was  no  evidence  in  certain  cost­reimbursement contract  files  that  an  analysis 
              was conducted to determine if contract types with firmer pricing was considered. 
          •	  A  pre  or  post­award  review  of  the  adequacy  of  the  contractor’s  accounting  system 
              on contracts selected for review had not been performed for 4 of 10 contracts. 
          •	  Cost  surveillance  was  considered  inadequate,  and  specific  mention  was  made  of 
              recent  cost  incurred  audits  findings  relating  to  the  billing  of  indirect  costs  as  direct 
              costs. 
          
         Even  though  NSF  has  taken  various  actions  beginning  in  late  FY  2007  to  improve  its  pre 
         and  post­award  oversight  procedures  to  avoid  these  problems,  NSF  needs  to  address 
         deficiencies with contracts in place before these procedural changes were made.  Based on 
         our review of NSF’s contract monitoring procedures during our FY 2009 audit, we concur 
         with GAO’s overall assessment that NSF’s cost surveillance practices need improvement.  
          
    c)	  The  NSF  OIG  issued  various  reports  and  communications  pointing  out  ongoing 
         weaknesses  in  NSF’s  contract  administration,  including  missing  or  unapproved  CAS 
         disclosure statements for two of NSF’s three largest cost reimbursement contractors.  
 
3.  	Completeness of Contracting Manual    
     Even  though  NSF  has  made  many  improvements  in  its  Contracting  Manual  since  FY  2007, 
     when  we  last  reported  a  significant  deficiency  in  this  area,  the  manual  does  not  include 
     adequate  policies  and  procedures  relevant  to  the  conditions  noted  above.  Specifically  the 
     Manual does not have adequate policies for: 
     a)  Considering  and  documenting  the  pricing  history  of  cost  reimbursement  contracts  to 
          determine if there is a basis to convert to a contract type with firmer pricing; 
     b)	  Complying  with  the  requirements  of  FAR  9.105­1  related  to  “Responsible  Prospective 
          Contractors”  to  include  procedures  to  document  the  review  to  ensure  the  adequacy  of 
          prospective contractors’ accounting systems prior to, or shortly after, making the award;   
     c)  Obtaining  all  contractors’  applicable  CAS  disclosure  statements  as  required  by  the  FAR, 
          and ensuring that they are audited and approved timely.  
     d)  Performing  periodic  validation  of  incurred  costs  on  cost­reimbursement  and  other  high 
          risk contracts; and 
     e)  Obtaining  and  reviewing  incurred  cost  submissions  within  the  6­month  period  following 
          the expiration of each of the contractors’ fiscal years. 
 
In  summary,  NSF’s  contract  funds  may  not  have  been  adequately  protected  from  waste,  fraud, 
and  mismanagement,  especially  for  NSF’s  three  advance  payment  contractors,  representing  FY 
2009  obligations  of  $270  million. The  risk  will  continue  to  be  high  until  NSF  improves  its  cost 
surveillance procedures.  
 
Recommendations: 
 
Overall, NSF  needs  to  reevaluate  the  effectiveness of  its  current  Contracting  Monitoring  program 
to  oversee  and  monitor  its  contract  system,  and  redesign  it  to  incorporate  more  comprehensive 
risk­based  policies  and  procedures. The  program  must  refocus  its  cost  surveillance  procedures  on 

                                                             II­12
                                           
                                                          
 
 
cost  reimbursement  contracts,  which  are  more  susceptible  to  waste  and  abuse.  This  will  likely 
require  an  evaluation  of  the  adequacy  of  the  contract  department’s  current  staffing  levels  and 
financial  resources  for  contract  audit  and  other  oversight  needs.  This  refocus  may  also  require  a 
reprioritization of staff responsibilities within the contract department.  
 
We specifically recommend that NSF management focus its efforts in the following areas:  
 
1.  Incurred Cost Audits and Expenditure Reviews 
    a)  Obtain  all  contractors’  CAS  disclosure  statements  as  required  by  FAR  52.230­2  “Cost 
         Accounting  Standards”  and  FAR  52.230­6  “Administration  of  Cost  Accounting 
         Standards”  and  ensure  that  they  are  audited  and  approved  timely.  Such  CAS  disclosure 
         statements must cover the proper business unit(s) of the contractor entity. 
    b) Continue  the  Quarterly  Expenditure  Report  (QER)  review  program,  but  reevaluate  the 
        
         scope of the review (i.e. Opinion report vs. Agreed­Upon Procedures report) based on risk 
         of cost error in the contract. 
    c)  Depending  on  materiality  and  risk, obtain  incurred  cost  audits  for  cost  reimbursable  type 
         contracts to obtain assurance of the validity of costs billed to NSF.  
    d)  Immediately  obtain  cost  incurred  audits  on  NSF’s  largest  contractor  for  FY  2005  through 
         FY  2009.  If  DCAA  is  unavailable,  NSF  should  explore  the  feasibility  of  procuring  the 
         audit services from another audit organization.  
    e)  Continue  to  work  on  resolving  the  remaining  audit  findings  relating  to  the  FY  2000  – 
         2004 incurred cost audits for its largest contractor. 
 
2.  Oversight Procedures 
    a)  Fully document the rationale for contract type selection, including consideration of pricing 
         history under cost­reimbursement contracts.   
    b)  Update  the  Contracting  Manual,  Section  4.4.8  “Responsible  Prospective  Contractors”  to 
         specify  what  review  steps  are  required  to  determine  if  the  contractor’s  accounting  system 
         has been deemed to be adequate within 4 years prior to the award process.  
    c)  Ensure  that  contractors  that  are  subject  to  the  allowable  cost  and  payment  clause  submit 
         cost  incurred  submissions  within  6  months  following  the  expiration  of  each  of  their  fiscal 
         years  in  accordance  with  the  FAR  and  obtain  audits  of  these  submissions  depending  on 
         materiality and risk. 
        
3.  Contracting Manual 
    a)   Revise the Contracting Manual to add procedures to address the issues noted above. 
    b)  Meet  with  the  NSF  OIG  to  evaluate  the  recommendations  detailed  in  its  reports  and  alert 
         memos  issued  in  the  last  two  years,  and  agree  upon  those  matters  that  require  the  most 
         attention for updating the Contracts Manual.        
                                                         
                                                         
                                                         




                                                            II­13
                                          
                                                         
 
 
                                
                                
                                
                                                     EXHIBIT II
 
                                
                                
                                
              NATIONAL SCIENCE FOUNDATION
 
            MANAGEMENT’S RESPONSE TO FY 2009
 
             INDEPENDENT AUDITOR’S REPORT
 
                     November 12, 2009





                                   II­14
                            
                                
II-15
                                     Principal Financial Statements




National Science Foundation


   FINANCIAL STATEMENTS
   As of and for the periods ended
    September 30, 2009 and 2008




                II-16 

                                                                                        Principal Financial Statements


                                               National Science Foundation
                                                      Balance Sheet
                                            As of September 30, 2009 and 2008
                                                 (Amounts in Thousands)

Assets                                                                                 2009                2008

    Intragovernmental Assets
        Fund Balance With Treasury (Note 2)                                 $           12,233,069 $         8,672,672
        Accounts Receivable                                                                 11,996              11,928
        Advances (Note 3)                                                                   19,187              15,284
    Total Intragovernmental Assets                                                      12,264,252           8,699,884

    Cash and Other Monetary Assets                                                          61,305             30,410
    Accounts Receivable, Net                                                                   290                391
    Advances (Note 3)                                                                       39,893             54,549
    General Property, Plant and Equipment, Net (Notes 4 and 5)                             261,389            269,794
Total Assets                                                                $           12,627,129 $         9,055,028

Liabilities

    Intragovernmental Liabilities
        Advances From Others                                                $                 44,380 $         97,260
        Employer Contributions                                                                 1,454            1,270
        FECA Employee Benefits                                                                   310              298
        Other Intragovernmental Liabilities (Note 6)                                           3,000            3,050
    Total Intragovernmental Liabilities                                                       49,144          101,878

    Accounts Payable                                                                        47,849             50,066
    FECA Employee Benefits                                                                   1,319              1,198
    Accrued Liabilities - Grants                                                           370,857            339,652
    Accrued Liabilities - Contracts and Payroll                                             35,486             46,779
    Accrued Annual Leave                                                                    16,889             15,475
Total Liabilities                                                           $              521,544 $          555,048

    Commitments and Contingencies (Note 6)

Net Position

    Unexpended Appropriations - Other Funds                                 $           11,439,991 $         7,813,135
    Cumulative Results of Operations - Earmarked Funds (Note 8)                            355,872             364,640
    Cumulative Results of Operations - Other Funds                                         309,722             322,205
Total Net Position                                                                      12,105,585           8,499,980

Total Liabilities and Net Position                                          $           12,627,129 $         9,055,028




                              The accompanying notes are an integral part of these statements.



                                                             II-17 

                                                                                  Principal Financial Statements


                                            National Science Foundation
                                                Statement of Net Cost
                                  For the Years Ended September 30, 2009 and 2008
                                              (Amounts in Thousands)

Program Costs                                                                       2009                2008

   Research and Related Activities
      Gross Costs                                                        $            5,014,818 $         4,835,276
      Less: Earned Revenues                                                            (100,934)            (99,471)
   Net Research and Related Activities                                                4,913,884           4,735,805

   Education and Human Resources
      Gross Costs                                                        $              796,311 $          870,111
      Less: Earned Revenues                                                              (8,593)            (8,914)
   Net Education and Human Resources                                                    787,718            861,197

   Major Research Equipment and Facilities Construction
      Gross Costs                                                        $              146,683 $          232,158
      Less: Earned Revenues                                                                   -                  -
   Net Major Research Equipment and Facilities Construction                             146,683            232,158

   Costs Not Assigned to Other Programs
      Gross Costs                                                        $              154,095 $          115,647
      Less: Earned Revenues                                                                   -                  -
   Net Costs Not Assigned to Other Programs                                             154,095            115,647

Net Cost of Operations (Note 9)                                          $            6,002,380 $         5,944,807




                           The accompanying notes are an integral part of these statements.


                                                        II-18 

                                                                                    Principal Financial Statements


                                           National Science Foundation
                                      Statement of Changes in Net Position
                                     For the Year Ended September 30, 2009
                                             (Amounts in Thousands)
                                                                                          2009

                                                                      Earmarked         All Other         Total
Cumulative Results of Operations

Beginning Balances (Note 8)                                       $      364,640             322,205       686,845

Budgetary Financing Sources
   Appropriations Used                                                         -         5,835,603       5,835,603
   Non-exchange Revenue                                                        -               567             567
   Donations                                                                   -            46,857          46,857
   Appropriated Earmarked Receipts Transferred In (Note 8)                88,657                 -          88,657

Other Financing Sources
   Imputed Financing From Costs Absorbed By Others                             -            10,149          10,149
   Other                                                                       -              (704)           (704)
Total Financing Sources                                                   88,657         5,892,472       5,981,129

Net Cost of Operations (Notes 8 and 9)                                   (97,425)       (5,904,955)      (6,002,380)

Cumulative Results of Operations (Note 8)                         $      355,872             309,722       665,594




Unexpended Appropriations

Beginning Balances                                                $            -         7,813,135       7,813,135

Budgetary Financing Sources
   Appropriations Received                                                     -         9,492,400        9,492,400
   Appropriations Transferred In / (Out)                                       -             3,214            3,214
   Other Adjustments                                                           -           (33,155)         (33,155)
   Appropriations Used                                                         -        (5,835,603)      (5,835,603)
Total Budgetary Financing Sources                                              -         3,626,856        3,626,856

Total Unexpended Appropriations                                                -        11,439,991      11,439,991

Net Position                                                      $      355,872        11,749,713      12,105,585




                          The accompanying notes are an integral part of these statements.


                                                        II-19 

                                                                                     Principal Financial Statements


                                           National Science Foundation
                                      Statement of Changes in Net Position
                                     For the Year Ended September 30, 2008
                                             (Amounts in Thousands)
                                                                                          2008

                                                                       Earmarked        All Other         Total
Cumulative Results of Operations

Beginning Balances (Note 8)                                        $      334,664            288,641       623,305

Budgetary Financing Sources
   Appropriations Used                                                          -        5,833,031        5,833,031
   Non-exchange Revenue                                                         -              509              509
   Donations                                                                    -           61,495           61,495
   Appropriated Earmarked Receipts Transferred In (Note 8)                104,430                -          104,430

Other Financing Sources
   Imputed Financing From Costs Absorbed By Others                              -            9,048            9,048
   Other                                                                        -             (166)            (166)
Total Financing Sources                                                   104,430        5,903,917        6,008,347

Net Cost of Operations (Notes 8 and 9)                                    (74,454)       (5,870,353)     (5,944,807)

Cumulative Results of Operations (Note 8)                          $      364,640            322,205       686,845




Unexpended Appropriations

Beginning Balances                                                 $            -        7,587,271        7,587,271

Budgetary Financing Sources
   Appropriations Received                                                      -         6,127,500       6,127,500
   Appropriations Transferred In / (Out)                                        -            (2,240)         (2,240)
   Other Adjustments                                                            -           (66,365)        (66,365)
   Appropriations Used                                                          -        (5,833,031)     (5,833,031)
Total Budgetary Financing Sources                                               -           225,864         225,864

Total Unexpended Appropriations                                                 -        7,813,135        7,813,135

Net Position                                                       $      364,640        8,135,340        8,499,980




                          The accompanying notes are an integral part of these statements.


                                                         II-20 

                                                                                          Principal Financial Statements


                                              National Science Foundation
                                     Statement of Budgetary Resources (page 1 of 2)
                                    For the Years Ended September 30, 2009 and 2008
                                                (Amounts in Thousands)

                                                                                           2009               2008
Budgetary Resources

   Unobligated Balance - Brought Forward, October 1                              $                243,570 $      218,677

   Recoveries of Prior Year Unpaid Obligations                                                     62,113         59,168

   Budget Authority
      Appropriation                                                                           9,628,481        6,293,934
      Spending Authority From Offsetting Collections
          Earned
                  Collected                                                                       109,561        121,234
                  Change in Receivables From Federal Sources                                           69        (12,634)
          Change in Unfilled Customer Orders
                  Advance Received                                                              (52,881)          25,243
                  Without Advance From Federal Sources                                           61,637          (31,520)
   Subtotal - Budget Authority                                                                9,746,867        6,396,257

   Nonexpenditure Transfers, Net - Anticipated and Actual                                           3,214         (2,240)

   Permanently Not Available                                                                      (33,155)       (66,365)

Total Budgetary Resources (Note 13)                                              $          10,022,609 $       6,605,497




                               The accompanying notes are an integral part of these statements.




                                                               II-21 

                                                                                           Principal Financial Statements


                                                National Science Foundation
                                       Statement of Budgetary Resources (page 2 of 2)
                                      For the Years Ended September 30, 2009 and 2008
                                                  (Amounts in Thousands)
                                                                                            2009                2008
Status of Budgetary Resources

   Obligations Incurred
      Direct (Note 12)                                                           $             9,021,671 $       6,259,622
      Reimbursable (Note 12)                                                                     119,273           102,305
   Total Obligations Incurred (Note 13)                                                        9,140,944         6,361,927
   Unobligated Balance - Apportioned (Note 2)                                                      787,497         157,926
   Unobligated Balance - Not Available (Note 13)                                                    94,168          85,644

Total Status of Budgetary Resources                                              $           10,022,609 $        6,605,497

Change in Obligated Balances
   Obligated Balance, Net
      Unpaid Obligations - Brought Forward, October 1                                          8,488,021         8,180,395
          Less: Uncollected Customer Payments From
                 Federal Sources - Brought Forward, October 1                                      (28,509)        (72,662)
   Total Unpaid Obligated Balance, Net                                                         8,459,512         8,107,733
   Obligations Incurred                                                                        9,140,944         6,361,927
   Less:   Gross Outlays                                                                      (6,063,928)       (5,995,134)
   Less:   Recoveries of Prior Year Unpaid Obligations, Actual                                     (62,113)        (59,168)
      Change in Uncollected Customer Payments From Federal Sources                              (61,706)            44,154
   Subtotal                                                                      $           11,412,709 $        8,459,512
   Obligated Balance, Net - End of Period
      Unpaid Obligations                                                                     11,502,924          8,488,021
          Less: Uncollected Customer Payments From Federal Sources                              (90,215)           (28,509)
   Total Unpaid Obligated Balance, Net - End of Period (Note 2)                  $           11,412,709 $        8,459,512

Net Outlays
   Gross Outlays                                                                               6,063,928         5,995,134
      Less: Offsetting Collections                                                               (56,680)         (146,476)
      Less: Distributed Offsetting Receipts                                                       (2,091)           (1,038)
Net Outlays                                                                      $             6,005,157 $       5,847,620




                                The accompanying notes are an integral part of these statements.




                                                                 II-22 

                                                             Notes to the Principal Financial Statements
                                            September 30, 2009 and 2008 (Dollar Amounts in Thousands)


               NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS
                         (Dollar Amounts in Thousands)

Note 1.         Summary of Significant Accounting Policies

A. Reporting Entity
The National Science Foundation (NSF or “Foundation”) is an independent federal agency created by the
National Science Foundation Act of 1950, as amended (42 U.S.C. 1861-75). Its mission is to promote
and advance scientific progress in the United States. NSF initiates and supports scientific research and
research fundamental to the engineering process and programs to strengthen the nation’s science and
engineering potential. NSF also supports education programs at all levels in all fields of science and
engineering. NSF funds research and education in science and engineering by awarding grants and
contracts to educational and research institutions in all parts of the United States. NSF, by law, cannot
operate research facilities except in the polar regions. By award, NSF enters into relationships to fund the
research operations conducted by grantees.

NSF is led by a presidentially-appointed Director and the policy-making National Science Board (NSB).
The NSB, composed of 24 members, represents a cross section of American leaders in science and
engineering research and education, who are appointed by the President for six-year terms. The NSF
Director is an ex officio member of the Board.

B. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of
NSF as required by the Chief Financial Officers Act of 1990, the Government Management Reform Act
of 1994, the Reports Consolidation Act of 2000, and the Office of Management and Budget (OMB)
Circular A-136, "Financial Reporting Requirements." While the statements have been prepared from the
books and records of NSF in accordance with United States generally accepted accounting principles
(U.S. GAAP) for federal entities and the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from the same
books and records.

C. Basis of Accounting
The accompanying financial statements have been prepared in accordance with U.S. GAAP for federal
entities using the accrual method of accounting. Under the accrual method, revenues are recognized
when earned and expenses are recognized when a liability is incurred, without regard to receipt or
payment of cash. The accompanying financial statements also include budgetary accounting transactions
that ensure compliance with legal constraints and controls over the use of federal funds.

D. Revenues and Other Financing Sources
NSF receives the majority of its funding through appropriations contained in the Science, State, Justice,
Commerce, and Related Agencies Appropriations Act. NSF receives annual, multi-year, and no-year
appropriations that may be expended, within statutory limits. NSF also receives funding via warrant from
a special earmarked receipt account that is reported as H-1B funds. Additional amounts are obtained
from reimbursements for services provided to other federal agencies as well as from receipts to the
donation account. Also, NSF receives interest earned on overdue receivables and excess cash advances to
grantees. The interest earned on overdue receivables and excess cash advances to grantees is returned to
the Treasury at the end of each fiscal year.




                                                   II-23 

                                                             Notes to the Principal Financial Statements
                                            September 30, 2009 and 2008 (Dollar Amounts in Thousands)


The Fiscal Year 2009 Omnibus Appropriations Act under Public Law 111-8 provided funding for each of
NSF's appropriations. Additionally, on February 17, 2009, Congress passed the American Recovery and
Reinvestment Act (ARRA) of 2009 under Public Law 111-5. Note 10 contains additional details on
ARRA funding.

Appropriations are recognized as a financing source at the time the related “funded” program or
administrative expenditures are incurred. Appropriations are also recognized when used to purchase
property, plant and equipment. “Unfunded” liabilities result from liabilities not covered by budgetary
resources and will be paid when future appropriations are made available for these purposes. Donations
are recognized as revenues when funds are received. Revenues from reimbursable agreements are
recognized when the services are provided and the related expenditures are incurred. Reimbursable
agreements are mainly for grant administrative services provided by NSF on behalf of other federal
agencies.

Under the general authority of the Foundation, NSF is authorized to accept funds into the NSF Donations
Account and to use both U.S. and foreign funds. In accordance with 42 U.S.C. 1862 Section 3 (a)(3),
NSF has authority “to foster the interchange of scientific and engineering information among scientists
and engineers in the United States and foreign countries” and in 42 U.S.C. 1870 Section 11 (f), NSF is
authorized to receive and use funds donated by others. Donations may be received from foreign
governments, private companies, academic institutions, non-profit foundations, and individuals. These
funds must be donated without restriction other than that they be used in furtherance of one or more of the
general purposes of the Foundation. Funds are made available for obligations as necessary to support
NSF programs.

E. Fund Balance with Treasury and Cash and Other Monetary Assets
Cash receipts and disbursements are processed by the Treasury. Fund Balance with Treasury is composed
primarily of appropriated funds that are available to pay current liabilities and finance authorized
purchase commitments. Cash and Other Monetary Assets primarily include non-appropriated funding
sources from donations and undeposited collections.

F. Accounts Receivable, Net
Accounts Receivable consists of amounts due from governmental agencies, private organizations, and
individuals. NSF establishes an allowance for loss on accounts receivable from non-federal sources that
are deemed uncollectible but regards amounts due from other federal agencies as fully collectible. NSF
analyzes each account independently to assess collectability and the need for an offsetting allowance or
write-off. NSF writes off delinquent debt from non-federal sources that is more than two years old.

G. Advances
Advances consist of advances to grantees, contractors, and federal agencies. Advance payments are made
to grant recipients so that recipients may incur expenditures related to the approved grant. Payments are
only made within the amount of the recorded grant obligation and are intended to cover immediate cash
needs. Advances to contractors are payments made in advance of incurring expenditures. Advances to
federal agencies are only issued when agencies are operating under working capital funds and are unable
to incur costs on a reimbursable basis. Advances are reduced when documentation supporting
expenditures is received and recorded.

H. General Property, Plant and Equipment (PP&E)
NSF capitalizes PP&E with costs exceeding $25 and useful lives of two or more years; items not meeting
these criteria are recorded as operating expenses. NSF currently reports capitalized PP&E at original



                                                   II-24 

                                                                 Notes to the Principal Financial Statements
                                                September 30, 2009 and 2008 (Dollar Amounts in Thousands)


acquisition cost; assets acquired from the General Services Administration (GSA) excess property
schedules are recorded at the value assigned by the donating agency; assets transferred in from other
agencies are at the cost recorded by the transferring entity for the asset net of accumulated depreciation or
amortization.

The PP&E balance consists of Equipment, Aircraft and Satellites, Buildings and Structures, Leasehold
Improvements, and Construction in Progress. These balances are comprised of PP&E maintained “in-
house” by NSF to support operations and PP&E under the U.S. Antarctic Program (USAP). The majority
of USAP property is currently under the custodial responsibility of the prime NSF contractor for the
program.

Costs incurred to construct buildings and structures are accumulated and tracked as construction in
progress. At 75% completion of construction, an on-site Conditional Occupancy inspection is performed
to inspect for compliance to the approved plans, design, specifications, and changes. Items that pertain to
the safety and health of any future occupants of the facility must be corrected before a Conditional
Occupancy is granted and the facility occupied. When Conditional Occupancy is granted, the completed
project is transferred from construction in progress to the buildings, structures or equipment account and
depreciated over the respective useful life of the asset.

Depreciation expense is calculated using the straight-line half-year convention. The economic useful life
classifications for capitalized assets are as follows:

    Equipment
       5 years           Computers and peripheral equipment, fuel storage tanks, laboratory equipment, and vehicles
       7 years           Communications equipment, office furniture and equipment, pumps and compressors
       10 or 15 years    Generators, Department of Defense equipment
       20 years          Movable buildings (e.g. trailers)

    Aircraft and Satellites
        7 years           Aircraft, aircraft conversions, and satellites

    Buildings and Structures
       31.5 years       Buildings and structures placed in service prior to 1994
       39 years         Buildings and structures placed in service after 1993


Leasehold Improvements
The cost of leasehold improvements performed by GSA is financed with NSF appropriated funds.
Amortization is calculated using the straight-line half-year convention upon transfer from construction in
progress. In fiscal year 2009, leasehold improvements completed during the year were amortized over
four years, the remaining years on NSF's lease with GSA.

Office Space: The NSF Headquarter buildings are leased through the GSA under an occupancy
agreement. The cancellation clause within the agreement allows NSF to terminate use with a 120 day
notice. NSF is billed by GSA for the leased space as rent based upon estimated lease payments made by
GSA plus an administrative fee. Therefore, the cost of the Headquarter buildings is not capitalized by
NSF.




                                                        II-25 

                                                             Notes to the Principal Financial Statements
                                            September 30, 2009 and 2008 (Dollar Amounts in Thousands)



Internal Use Software
NSF controls, values and reports purchased or developed software as tangible property assets, in
accordance with the Statement of Federal Financial Accounting Standards (SFFAS) No. 10 –
"Accounting for Internal Use Software." NSF identifies software investments as accountable property for
items that, in the aggregate, cost $500 or more to purchase, develop, enhance, or modify a new or existing
NSF system. Software projects that are not completed at year end and are expected to exceed the
capitalization threshold are recorded as software in development. All internal use software meeting the
capitalization threshold is amortized over a five-year period using the straight-line half-year convention.

Assets Owned by NSF in the Custody of Other Entities: NSF awards grants, cooperative agreements, and
contracts to various organizations, including colleges and universities, non-profit organizations, state and
local governments, Federally Funded Research and Development Centers (FFRDCs), and private entities.
The funds provided may be used in certain cases to purchase or construct PP&E to be used for operations
or research on projects or programs sponsored by NSF. In these instances, NSF funds the acquisition of
property, but transfers control of the assets to these entities. NSF’s authorizing legislation specifically
prohibits the Foundation from operating such property directly. In practice, NSF’s ownership interest in
such PP&E is similar to a reversionary interest. To address the accounting and reporting of these assets,
specific guidance was sought by NSF and provided by the Federal Accounting Standards Advisory Board
(FASAB). This guidance stipulates that NSF should: (i) disclose the value of such PP&E held by others
in its financial statements based on information contained in the audited financial statements of these
entities (if available); and (ii) report information on costs incurred to acquire the research facilities,
equipment, and platforms in the Research and Human Capital Activity costs as required by the SFFAS
No. 8, "Supplementary Stewardship Reporting." Very few entities disclose information on NSF titled
property in their audited financial statements. Therefore, NSF has elected to disclose only the number of
entities in possession of NSF owned property. Entities that separately present the book value of NSF
titled property in their audited financial statements and all FFRDCs are listed in Note 5 along with the
book value of the property held.

I. Advances From Others
Advances From Others consist of amounts obligated and advanced by other federal entities to NSF for
grant administration and other services to be furnished under reimbursable agreements. Balances at the
end of the year are adjusted by an allocated amount from the fourth quarter grantee expenditure estimate
described under Note 1K, Accrued Liabilities - Grants. The amount to be allocated by Trading Partner is
based on a percentage of reimbursable grant expenditures to total grant expenditures.

J. Accounts Payable
Accounts Payable consist of liabilities to federal agencies, commercial vendors, contractors, and
disbursements in transit. Accounts payable to federal agencies, commercial vendors, and contractors are
expenses for goods and services received but not yet paid by NSF at the end of the fiscal year. At year
end, NSF accrues for the amount of estimated unpaid expenditures to commercial vendors for which
invoices have not been received, but goods and services have been delivered and rendered. Accounts
payable also consist of disbursements in transit recorded by NSF but not paid by Treasury.

K. Accrued Liabilities – Grants
The total grant liabilities for the year are determined based on an estimate of prior quarter expenditures
incurred and cash on hand held by the grantees. The majority of NSF’s grantees are reimbursed for
incurred costs, but due to the timing of the receipt of expenditure reports, grantees draw down funds prior
to the recognition of the reimbursement for incurred costs. This timing constraint causes funding to



                                                   II-26 

                                                             Notes to the Principal Financial Statements
                                            September 30, 2009 and 2008 (Dollar Amounts in Thousands)


grantees to be recorded as advances. The grant accrual calculation is based on historical trend analyses
prepared by NSF. NSF uses a methodology to track the spending patterns by fiscal year and quarter for
each of its fund groups. NSF determined that each appropriation and the year of the appropriation have a
noted spending pattern. Based on historical information, NSF applies an average percentage rate to the
current year grant related obligations for each individual appropriation within a fund group. The
calculation provides NSF with the accrued expenditure. NSF estimates the ending cash on hand balance in
total for its grantees after the accrued grant expenditures have been determined. Based on a weighted
average of three years of historical cash on hand data, NSF applies the negative cash on hand rate to the
estimated ending cash on hand to determine the amount to record as a liability. The difference between
the total expenditure amount accrued and the liability recorded is used to reduce the advance.

The American Recovery and Reinvestment Act (ARRA) grant accrual uses a similar methodology as the
grant accrual described above. Fiscal year 2009 is the first year that ARRA funds were expended, and
therefore no historical information exists. The methodology for calculating the accrual expenditure is
based on the similarity of spending trends between the ARRA grants and standard grants. NSF has three
appropriations that received ARRA funding for grants in fiscal year 2009. The current year accrual rates
for the Research and Related Activities (R&RA) and Education and Human Resources (EHR)
appropriations are determined based on the three year average of first year outlays for non-ARRA grants
and cooperative agreements in those appropriations. The first year spending rates are prorated and
applied to corresponding ARRA obligations by fund group and award type. Due to the late timing of the
ARRA grant awards in 2009 for the Major Research Equipment and Facilities Construction (MREFC)
appropriation, no expenditures will be recorded in MREFC until fiscal year 2010.

L. Accrued Liabilities – Contracts and Payroll
Accrued Liabilities - Contracts, Payroll, and Other consist of contract accruals, accrued payroll, and
benefits. The total contracts liabilities for the year are determined based on an estimate of prior quarter
expenditures incurred by the three contractors that are funded on an advance basis. Expenditures are
estimated for each contractor by computing an average of the previous four quarters of actual
expenditures reported. The accrual increases expenditures and decreases advances for the account. If the
estimated accrual amount exceeds total advances, a liability is accrued for the excess. NSF’s payroll
services are provided by the Department of the Interior's National Business Center. Accrued payroll and
benefits relate to services rendered by NSF employees, for which they are not yet paid. At year end, NSF
accrues the amount of wages and benefits earned, but not yet paid.

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. Each year, the
balance in the accrued annual leave account is adjusted to reflect changes. To the extent current and
prior-year appropriations are not available to fund annual leave earned but not taken, funding will be
obtained from future Agency Operations and Award Management appropriations. Sick leave and other
types of non-vested leave are expensed as taken.

M. Employee Benefits
A liability is recorded for estimated and actual future payments to be made for workers' compensation
pursuant to the Federal Employees' Compensation Act (FECA). The liability consists of the net present
value of estimated future payments calculated by the U.S. Department of Labor (DOL) and the actual
unreimbursed cost paid by DOL for compensation paid to recipients under FECA. The actual costs
incurred are reflected as a liability because NSF will reimburse DOL two years after the actual payment
of expenses. Future NSF Agency Operations and Award Management appropriations will be used for
DOL's estimated reimbursement.




                                                   II-27 

                                                             Notes to the Principal Financial Statements
                                            September 30, 2009 and 2008 (Dollar Amounts in Thousands)




N. Net Position
Net position is the residual difference between assets and liabilities and is composed of unexpended
appropriations and cumulative results of operations. Unexpended appropriations represent the amount of
undelivered orders and unobligated balances of budget authority. Unobligated balances are the amount of
appropriations or other authority remaining after deducting the cumulative obligations from the amount
available for obligation. The cumulative results of operations represent the net results of NSF’s
operations since the Foundation's inception.

O. Retirement Plan
In fiscal year 2009, approximately 18 percent of NSF employees participated in the Civil Service
Retirement System (CSRS), to which NSF matches contributions equal to 7 percent of pay. The majority
of NSF employees are covered by the Federal Employees Retirement System (FERS) and Social Security.
A primary feature of FERS is a thrift savings plan to which NSF automatically contributes 1 percent of
pay and matches employee contributions up to an additional 4 percent of pay. NSF also contributes the
employer's matching share for Social Security for FERS participants.

Although NSF funds a portion of the benefits under FERS and CSRS relating to its employees and
withholds the necessary payroll deductions, the Foundation has no liability for future payments to
employees under these plans, nor does NSF report CSRS, FERS, Social Security assets, or accumulated
plan benefits, on its financial statements. Reporting such amounts is the responsibility of the Office of
Personnel Management (OPM) and The Federal Retirement Thrift Investment Board.

SFFAS No. 5, "Accounting for Liabilities of the Federal Government," requires employing agencies to
recognize the cost of pensions and other retirement benefits during their employees' active years of
service." OPM actuaries determine pension cost factors by calculating the value of pension benefits
expected to be paid in the future, and provide these factors to the agency for current period expense
reporting. Information is also provided by OPM regarding the full cost of health and life insurance
benefits at http://www.opm.gov/retire/pubs/bals/2009/09-304.pdf on the OPM Benefit Administration
Website.

P. Contingencies and Possible Future Costs
Contingencies - Claims and Lawsuits: NSF is a party to various legal actions and claims brought against
it. In the opinion of NSF management and legal counsel, the ultimate resolution of the actions and claims
will not materially affect the financial position or operations of the Foundation. NSF recognizes the
contingency in the financial statements when claims are expected to result in a material loss (and the
payment amounts can be reasonably estimated) whether from NSF's appropriations or the Judgment Fund,
administered by the Department of Justice under Section 1304 of Title 31 of the United States Code.

Claims and lawsuits have also been made and filed against awardees of the Foundation by third parties.
NSF is not a party to these actions and NSF believes there is no possibility that NSF will be legally
required to satisfy such claims. Judgments or settlements of the claims against awardees that impose
financial obligation on them may be claimed as costs under the applicable contract, grant, or cooperative
agreement and thus may affect the allocation of program funds in future fiscal years. In the event that the
claim becomes probable and amounts can be reasonably estimated, the claim will be recognized.

Contingencies – Unasserted Claims: For claims and lawsuits that have not been made and filed against
the Foundation, NSF management and legal counsel determine, in their opinion, whether resolution of the



                                                   II-28 

                                                             Notes to the Principal Financial Statements
                                            September 30, 2009 and 2008 (Dollar Amounts in Thousands)


actions and claims it is aware of will materially affect the Foundation’s financial position or operations.
NSF recognizes a contingency in the financial statements when unasserted claims are probable of
assertion, and if asserted, would be probable of an unfavorable outcome, and expected to result in a
measurable loss, whether from NSF’s appropriations or the Judgment Fund. NSF discloses unasserted
claims if materiality or measurability of a potential loss cannot be determined or the loss is more likely
than not to occur rather than probable.

Contingencies - Cost Incurred Audits: A large NSF contractor provides maintenance and operations
services to the United States Antarctic Program. Cost incurred audits have been completed on the
contractor for fiscal years 2000 to 2004. Of the amount originally questioned, $28,190 remains
unresolved. A corresponding receivable is not reflected in the balance sheet due to the uncertainty of
NSF recovering any of these questioned costs.

Termination Claims: NSF engages organizations, including Federally Funded Research and Development
Centers (FFRDCs), in cooperative agreements and contracts to manage, operate, and maintain research
facilities for the benefit of the scientific community. As part of these agreements and contracts, NSF
funds on a pay-as-you-go basis certain employee benefit costs (accrued vacation and other employee
related liabilities, severance pay and medical insurance), long term leases and vessel usage. Agreements
with FFRDCs include a clause that commits NSF to seek appropriations for termination expenses, if
necessary, in the event that an agreement is not renewed or is terminated.

NSF is obligated to pay termination expenses for FFRDCs in excess of the limitation of funds set forth in
the agreements, including any Post Retirement Benefit liabilities, only if funds are appropriated for this
specific purpose. Nothing in these agreements can be construed as implying that Congress will
appropriate funds to meet the terms of any claims. Although one FFRDC operator has identified these
payments as a current obligation of NSF, the termination clause of the agreement clearly states that any
obligation for these expenses exists only upon termination of the agreement and is limited to the lesser of
available appropriations or $25,000. NSF considers non-renewal or termination of these cooperative
agreements to be only remotely possible. Termination costs that may be payable to an FFRDC operator
cannot be estimated until such a time as the cooperative agreement is terminated.

Environmental Liabilities: NSF manages the U.S. Antarctic Program. The Antarctic Conservation Act
and its implementing regulations identify the requirements for environmental clean-up in Antarctica.
NSF continually monitors the U.S. Antarctic Program in regards to environmental issues. NSF
establishes its environmental liability estimates in accordance with the requirements of the SFFAS No. 5,
“Accounting for Liabilities of the Federal Government,” and as amended by SFFAS No. 12, “Recognition
of Contingent Liabilities Arising from Litigation,” and the Federal Financial Accounting and Auditing
Technical Release No. 2, “Determining Probable and Reasonably Estimable for Environmental Liabilities
in the Federal Government.”

While NSF is not legally liable for environmental clean-up costs in the Antarctic, there are occasions
when the NSF Office of Polar Programs (OPP) chooses to accept responsibility and commit funds toward
clean-up efforts of various sites as resources permit. Those decisions are in no way driven by concerns of
probable legal liability for failure to engage in such efforts, but rather, a commitment to environmental
stewardship of Antarctic natural resources. Environmental clean-up projects started and completed during
the year are reflected in NSF's financial statements as expenses for the current fiscal year. An estimated
cost is accrued for approved projects that are anticipated to be performed after the fiscal year end or will
take more than one fiscal year to complete.




                                                   II-29 

                                                               Notes to the Principal Financial Statements
                                              September 30, 2009 and 2008 (Dollar Amounts in Thousands)


Q. Use of Estimates
Management has made certain estimates and assumptions when reporting assets, liabilities, revenues, and
expenses, and also in the note disclosures. Estimates underlying the accompanying financial statements
include accounting for grants, contracts, accounts payable, payroll, and property, plant and equipment.
Actual results may differ from these estimates, and the difference will be adjusted for and included in the
financial statements of the following fiscal year.

Note 2.    Fund Balance With Treasury

Fund Balance With Treasury consisted of the following components as of September 30, 2009 and 2008:

(Amounts in Thousands)                                                        2009
                                                 Appropriated        Donated         Earmarked
                                                    Funds             Funds            Funds            Total
Obligated                                       $ 11,060,235 $          44,414 $        308,060 $     11,412,709
Unobligated Available                                702,435            34,647           50,415          787,497
Unobligated Unavailable                               91,938                26            2,204           94,168

Less: Budgetary Non-FBWT                                     -          (61,305)              -          (61,305)
Total FBWT                                      $   11,854,608 $         17,782 $       360,679 $     12,233,069

(Amounts in Thousands)                                                       2008
                                                  Appropriated       Donated      Earmarked
                                                     Funds            Funds         Funds               Total
Obligated                                       $   8,104,439 $         37,853 $     317,220 $         8,459,512
Unobligated Available                                  66,934           44,028        46,964             157,926
Unobligated Unavailable                                81,779                -         3,865              85,644

Less: Budgetary Non-FBWT                                     -          (30,410)              -          (30,410)
Total FBWT                                      $    8,253,152 $         51,471 $       368,049 $      8,672,672



The Donations Account includes amounts donated to NSF from all sources. Funds in the Donations
Account may be used to further one or more of the general purposes of the Foundation. The donated
funds are held as Fund Balance With Treasury (FBWT) or as non-FBWT with budgetary resources which
represent cash held outside of Treasury at commercial banks in interest bearing accounts. These funds are
collateralized up to $61,200 by the bank through the Federal Reserve Bank of St. Louis in accordance
with Treasury Financial Manual Volume 1, Chapter 6-9000. Unobligated Unavailable balances include
recoveries of prior year obligations and other unobligated expired funds that are unavailable for new
obligations.

In fiscal year 1999, in accordance with P.L. 105-277, a special fund named H-1B Nonimmigrant
Petitioner Fees Account was established in the general fund of the U.S. Treasury. These funds are
considered Earmarked Funds and are not included in Appropriated Funds. The funds represent fees
collected for each petition for nonimmigrant status. Under the law, NSF was prescribed a percentage of
these fees for specific programs.




                                                     II-30 

                                                               Notes to the Principal Financial Statements
                                              September 30, 2009 and 2008 (Dollar Amounts in Thousands)


Note 3.    Advances

Intragovernmental
As of September 30, 2009 and 2008, Intragovernmental Advances were $19,187 and $15,284 respectively.

Public
(Amounts in Thousands)                                                                 2009             2008

Advances to Grantees                                                            $        26,699 $         54,549
Advances to Contractors                                                                  13,194                -
Total Advances to the Public                                                    $        39,893 $         54,549

Note 4.    General Property, Plant and Equipment, Net

The components of General Property, Plant and Equipment as of September 30, 2009 and 2008 were:

(Amounts in Thousands)                                                                2009



                                                                  Acquisition  Accumulated             Net Book
                                                                     Cost      Depreciation             Value
Equipment                                                       $    119,427 $     (99,595) $             19,832
Aircraft and Satellites                                              138,487      (138,487)                     -
Buildings and Structures                                             278,208       (85,063)              193,145
Leasehold Improvements                                                 7,173        (3,618)                 3,555
Construction in Progress                                              26,326              -               26,326
Internal Use Software                                                  7,091        (6,929)                   162
Software in Development                                               18,369              -               18,369
Total PP&E                                                      $    595,081 $    (333,692) $            261,389

(Amounts in Thousands)                                                                2008



                                                                  Acquisition  Accumulated             Net Book
                                                                     Cost      Depreciation             Value
Equipment                                                       $    117,839 $     (94,592) $             23,247
Aircraft and Satellites                                              138,487      (135,287)                 3,200
Buildings and Structures                                             274,776       (76,848)              197,928
Leasehold Improvements                                                 6,490        (2,580)                 3,910
Construction in Progress                                              26,167              -               26,167
Internal Use Software                                                  7,091        (6,447)                   644
Software in Development                                               14,698              -               14,698
Total PP&E                                                      $    585,548 $    (315,754) $            269,794




                                                     II-31 

                                                               Notes to the Principal Financial Statements
                                              September 30, 2009 and 2008 (Dollar Amounts in Thousands)


Note 5. Property, Plant and Equipment in the Custody of Other Entities

As explained in Note 1H, in the Assets Owned by NSF in the Custody of Other Entities section, NSF
received a ruling from FASAB on accounting for PP&E owned by NSF but in the custody of and used by
others. The FASAB guidance requires PP&E in the custody of others be excluded from NSF PP&E as
defined in the SFFAS No. 6 "Accounting for Property, Plant and Equipment." NSF is required to disclose
the dollar amount of NSF PP&E held by others in the footnotes based on information contained in the
most recently issued audited financial statements of the organization holding the assets.

At September 30, 2009, there were 28 colleges or universities, and 31 commercial entities that held
property titled to NSF. None of the colleges or universities reported NSF titled property separately;
however, one commercial entity, UNAVCO Inc., reported NSF titled property with a net book value of
$20,607.

The amount of PP&E owned by NSF but in the custody of an FFRDC is identified in the table below. In
some cases, FFRDCs operate on a fiscal year end basis other than September 30. If NSF PP&E is not
separately stated on the FFRDC's audited financial statements or the FFRDC is not audited, the related
amounts are annotated as Not Available (N/A) in the table.

(Amounts in Thousands)

                                                                                                Fiscal Year
Federally Funded Research and Development Centers                                 Amount          Ending

National Astronomy & Ionosphere Center (Cornell) - NAIC                       $     N/A            6/30
University Corporation for Atmospheric Research - UCAR                            169,710          9/30
Association of Universities for Research in Astronomy, Inc. - AURA                  N/A            9/30
National Radio Astronomy Observatory - AUI                                          N/A            9/30

Note 6. Other Intragovernmental Liabilities

The balance of Other Intragovernmental Liabilities is primarily made up of Contingent and Custodial
Liabilities.

Contingent liabilities include environmental contingent liabilities. At September 30, 2009 and 2008, no
funds were accrued for multi-year environmental clean-up projects in the Antarctic.

In fiscal year 2009, NSF had contractor claims of $3,000 for compensation under a contract awarded by
the United States Air Force (USAF) for the reconfiguration of three NSF owned LC130 aircraft. The
$3,000 was paid by the Department of Justice's Judgement Fund. While NSF maintains that the USAF is
the party responsible for the claim, and is seeking a decision from the Department of Justice's legal
counsel to that effect, NSF has requested $3,000 in its fiscal year 2010 budget submission in a good faith
effort to reimburse the Judgement Fund.




                                                     II-32 

                                                              Notes to the Principal Financial Statements
                                             September 30, 2009 and 2008 (Dollar Amounts in Thousands)


Note 7. Leases

NSF leases its Headquarter buildings under an operating lease with the GSA. The following is a schedule
of future minimum lease payments for the Headquarter buildings. The current leases are active through
fiscal year 2013. The small amount in fiscal year 2014 is the residual amortization.


(Amounts in Thousands)

                                                                              Operating Lease
                         Fiscal Year                                             Amount
              2010                                                                   20,912
              2011                                                                   21,242
              2012                                                                   21,569
              2013                                                                   20,269
              2014                                                                    4,581
              Total Minimum Lease Payments                                  $        88,573

In addition to the Headquarter buildings, NSF occupies common spaces with other federal agencies
overseas through the State Departments International Cooperative Administrative Support Services
(ICASS) system. NSF utilizes ICASS in Beijing, Paris, and Tokyo for residential and non-residential
space. ICASS is a voluntary cost distribution system and the agreement to receive ICASS services is
through an annual Memorandum of Understanding (MOU) between the NSF and the State Department.
Additionally, NSF occupies residential space in Tokyo and office space in Denver, Colorado. The
agreement to occupy space in Denver, Colorado is an annual MOU with the Department of Commerce
and the lease to occupy residential space in Tokyo is a cancellable agreement between the United States
Government and the lessor. All NSF leases are cancellable and/or for a period not more than a year.

Note 8. Earmarked Funds

In fiscal year 1999, Title IV of the American Competitiveness and Workforce Improvement Act of 1998
(P.L. 105-277) established an H-1B Nonimmigrant petitioner account in the General Fund of the U.S.
Treasury. Funding is established from fees collected for alien, nonimmigrant status petitions. This law
requires that a prescribed percentage of the funds in the account be made available to NSF for the
following activities:
         • Computer Science, Engineering, and Mathematics Scholarship (CSEMS)
         • Grants for Mathematics, Engineering, or Science Enrichment Courses
         • Systemic Reform Activities

The H-1B Nonimmigrant Petitioner fees are available to the Director of NSF until expended. The funds
may be used for scholarships to low income students, or to carry out a direct or matching grant program to
support private and/or public partnerships in K-12 education. The H-1B Fund is set up as a permanent,
indefinite appropriation by NSF. These funds are included in the President’s budget. The earmarked
funds are accounted for in a separate Treasury Account Fund Symbol (TAFS) and the budgetary
resources for the earmarked fund are recorded as Appropriated Earmarked Receipts Transferred In, and
reported according to the guidance for earmarked funds in SFFAS No. 27, "Identifying and Reporting
Earmarked Funds."




                                                   II-33 

                                                                  Notes to the Principal Financial Statements
                                                 September 30, 2009 and 2008 (Dollar Amounts in Thousands)


                                                                                      2009          2008
                                                                                    Earmarked     Earmarked
(Amounts in Thousands)                                                                Funds         Funds

Balance Sheet as of September 30, 2009 and 2008

Fund Balance with Treasury                                                      $     360,679 $      368,049
Advances                                                                                  403            631
   Total Assets                                                                       361,082        368,680

Other Liabilities                                                                       5,210          4,040
Total Liabilities                                                                       5,210          4,040

Unexpended Appropriations                                                                   -              -
Cumulative Results of Operations                                                      355,872        364,640
   Total Liabilities and Net Position                                           $     361,082 $      368,680

Statement of Net Cost for the Years Ended September 30, 2009 and 2008

Program Costs                                                                $       97,425 $         74,454
Less: Earned Revenues                                                                     -                -
Net Cost of Operations                                                       $       97,425 $         74,454
Statement of Changes in Net Position For the Years Ended September 30, 2009 and 2008

Net Position Beginning of Period                                                $     364,640 $      334,664

Appropriated Earmarked Receipts Transferred In                                          88,657       104,430
Net Cost of Operation                                                                  (97,425)      (74,454)

Change in Net Position                                                                  (8,768)       29,976

Net Position End of Period                                                      $     355,872 $      364,640


Note 9. Statement of Net Cost

Major Program Descriptions

The Statement of Net Cost presents the NSF-wide expenses incurred by the Foundation. The presentation
of the NSF’s net cost by strategic goal is included in this note. The Statement of Net Cost reflects the
Foundation’s strategic framework set forth in NSF’s strategic plan, “Investing in America’s Future:
Strategic Plan FY 2006-2011.”

The strategic goals outlined are: Discovery, Learning, and Research Infrastructure. NSF’s fourth strategic
goal, Stewardship, focuses on NSF’s administrative and management activities. In pursuit of its mission,
NSF makes investments in Discovery, Learning, and Research Infrastructure. These goals reflect
outcomes at the heart of the research enterprise: fostering research that will advance the frontiers of
knowledge (Discovery); cultivating a world-class, broadly inclusive science and engineering workforce
and expanding the scientific literacy of all citizens (Learning); and building the nation's research



                                                       II-34 

                                                            Notes to the Principal Financial Statements
                                           September 30, 2009 and 2008 (Dollar Amounts in Thousands)


capability through critical investments in advanced instrumentation, facilities, cyberinfrastrucure, and
experimental tools (Research Infrastructure).

Net costs are presented for the three primary appropriations that fund NSF’s programmatic activities
(R&RA, EHR, and MREFC) and for donations and earmarked funds that are classified in the Statement
of Net Cost and its related footnote as 'Costs Not Assigned To Other Programs'. Stewardship costs are
prorated among them. Stewardship costs include expenditures incurred from the Agency Operations and
Award Management (AOAM), National Science Board (NSB) and Office of Inspector General (OIG)
appropriations. These appropriations support salaries and benefits of persons employed at NSF; general
operating expenses, including support of NSF’s information systems technology; staff training, audit and
OIG activities; and Office of Personnel Management (OPM) and Department of Labor (DOL) benefits
costs paid on behalf of NSF.

At September 30, 2009 and 2008, approximately 95 percent of NSF's expenses were directly related to the
Discovery, Learning, and Research Infrastructure strategic outcome goals. Net costs for each strategic
goal is determined by allocating total costs by the percentage for which obligations for each strategic
outcome goal accounted for total obligations in the current year. All NSF earmarked funds are allocated
to the Learning strategic goal. The remaining portion of NSF’s expenses relate to the Stewardship
strategic goal.

At September 30, 2009 and 2008, costs related to the Stewardship activities totaled $332,623 and
$283,245, respectively. All Stewardship costs are prorated to the other three strategic goals based on the
percentage that each Strategic Goal's expenditures account for the total expenditures of appropriated,
trust, and earmarked funds.

In accordance with OMB Circular A-136, costs incurred for services provided by other federal entities are
reported in the full costs of NSF programs and are identified as "Federal." All earned revenues are
offsetting collections provided through reimbursable agreements with other federal entities and are
retained by NSF. Earned revenues are recognized when the related program or administrative expenses
are incurred and are deducted from the full cost of the programs to arrive at the net cost of operating
NSF's programs. NSF applies a cost recovery fee on other federal entities consistent with applicable
legislation and Government Accountability Office decisions. NSF recovers the costs incurred in the
management, administration, and oversight of activities authorized and/or funded by interagency
agreements where NSF is the performing agency.




                                                  II-35 

                                                               Notes to the Principal Financial Statements
                                              September 30, 2009 and 2008 (Dollar Amounts in Thousands)


Intragovernmental and Public Costs and Earned Revenue by Strategic Goal

                                                                                     2009
(Amounts in Thousands)                                               Federal        Public        Total

Research and Related Activities
    Discovery                                                   $      142,555      2,819,698    2,962,253
    Learning                                                            32,990        652,536      685,526
    Research Infrastructure                                             65,787      1,301,252    1,367,039
Total Research and Related Activities                                  241,332      4,773,486    5,014,818
    Less: Earned Revenue                                              (100,934)             -     (100,934)
Net Research and Related Activities                                    140,398      4,773,486    4,913,884

Education and Human Resources
    Discovery                                                   $          4,018     466,363      470,381
    Learning                                                                 930     107,926      108,856
    Research Infrastructure                                                1,854     215,220      217,074
Total Education and Human Resources                                        6,802     789,509      796,311
    Less: Earned Revenue                                                  (8,593)          -       (8,593)
Net Education and Human Resources                                         (1,791)    789,509      787,718

Major Research Equipment and Facilities Construction
    Discovery                                                   $         1,353       85,293       86,646
    Learning                                                                313       19,739       20,052
    Research Infrastructure                                                 624       39,361       39,985
Total Major Research Equipment and Facilities Construction                2,290      144,393      146,683
    Less: Earned Revenue                                                      -            -            -
Net Major Research Equipment and Facilities Construction                  2,290      144,393      146,683

Costs Not Assigned To Other Programs
    Learning                                                    $           353      101,675      102,028
    Research Infrastructure                                                   2       52,065       52,067
Total Costs Not Assigned To Other Programs                                  355      153,740      154,095
    Less: Earned Revenue                                                      -            -            -
Net Costs Not Assigned To Other Programs                                    355      153,740      154,095

Net Cost of Operations                                          $     141,252       5,861,128    6,002,380




                                                      II-36 

                                                               Notes to the Principal Financial Statements
                                              September 30, 2009 and 2008 (Dollar Amounts in Thousands)


                                                                                   2008
(Amounts in Thousands)                                              Federal       Public          Total

Research and Related Activities
    Discovery                                                   $    155,978      2,621,404      2,777,382
    Learning                                                          40,162        674,975        715,137
    Research Infrastructure                                           75,410      1,267,347      1,342,757
Total Research and Related Activities                                271,550      4,563,726      4,835,276
    Less: Earned Revenue                                             (99,471)             -        (99,471)
Net Research and Related Activities                                  172,079      4,563,726      4,735,805

Education and Human Resources
    Discovery                                                   $       2,942      496,850        499,792
    Learning                                                              758      127,932        128,690
    Research Infrastructure                                             1,422      240,207        241,629
Total Education and Human Resources                                     5,122      864,989        870,111
    Less: Earned Revenue                                               (8,914)           -         (8,914)
Net Education and Human Resources                                      (3,792)     864,989        861,197

Major Research Equipment and Facilities Construction
    Discovery                                                   $      4,350       129,002        133,352
    Learning                                                           1,120        33,216         34,336
    Research Infrastructure                                            2,103        62,367         64,470
Total Major Research Equipment and Facilities Construction             7,573       224,585        232,158
    Less: Earned Revenue                                                   -             -              -
Net Major Research Equipment and Facilities Construction               7,573       224,585        232,158

Costs Not Assigned To Other Programs
    Learning                                                    $        542        76,863         77,405
    Research Infrastructure                                                -        38,242         38,242
Total Costs Not Assigned To Other Programs                               542       115,105        115,647
    Less: Earned Revenue                                                   -             -              -
Net Costs Not Assigned To Other Programs                                 542       115,105        115,647

Net Cost of Operations                                          $    176,402      5,768,405      5,944,807



Note 10. American Recovery and Reinvestment Act (ARRA) of 2009

ARRA provided NSF with multi-year funding to the R&RA, EHR, MREFC, and OIG in the amount of
$3,002,000. ARRA funds are distributed directly to researchers and graduate students and are used for
the development of advanced scientific tools and infrastructures that are available to the research
community. As of September 30, 2009, ARRA funds in the amount of $2,401,662 were obligated. For
details on ARRA disbursements and reporting requirements, visit NSF's Recovery Act website at
www.nsf.gov/recovery.




                                                      II-37 

                                                              Notes to the Principal Financial Statements
                                             September 30, 2009 and 2008 (Dollar Amounts in Thousands)



Note 11. Permanent Indefinite Appropriations

NSF maintains permanent indefinite appropriations for R&RA, MREFC, and EHR.

The R&RA appropriation is used for polar research and operations support and for reimbursement to
other federal agencies for operational and science support and logistical and other related activities for the
United States Antarctic program. In fiscal years 2009 and 2008 the permanent indefinite appropriations
for R&RA were $472,170 and $444,010, respectively, and are reported as current year transfers from the
annual R&RA appropriation. The MREFC appropriation supports the construction and procurement of
unique national research platforms and major research equipment. In fiscal years 2009 and 2008, the
permanent indefinite appropriations for MREFC were $152,010 and $220,740, respectively. The EHR
appropriation is used to carry out science and engineering education and human resources programs and
activities. In fiscal year 2009, the permanent indefinite appropriations for EHR were recorded as a
current year transfer from the annual appropriation and amounted to $55,000. NSF did not receive
permanent indefinite appropriations for EHR in fiscal year 2008.

Note 12. 	Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable
          Obligations

OMB Circular No. A-11, "Preparation, Submission, and Execution of the Budget," requires direct and
reimbursable obligations be reported as Category A, Category B, or Exempt from Apportionment. In
fiscal years 2009 and 2008, NSF’s SF-132, "Apportionment and Reapportionment Schedule," apportions
all obligations incurred under Category B which is by activity, project, or object. In fiscal years 2009 and
2008, direct obligations amounted to $9,021,671 and $6,259,622, respectively, and reimbursable
obligations amounted to $119,273 and $102,305, respectively.

Note 13. Explanation of Differences between the Statement of Budgetary Resources and the
         Budget of the United States Government

SFFAS No. 7, "Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting," calls for explanations of material differences between amounts
reported in the Statement of Budgetary Resources (SBR) and the actual balances published in the Budget
of the United States Government (President’s Budget). However, the President’s Budget that will include
fiscal year 2009 actual budgetary execution information has not yet been published. The President’s
Budget is scheduled for publication in the spring of Fiscal Year 2010 and can be found on the OMB web
site: http://www.whitehouse.gov/omb.

Balances reported in the fiscal year 2008 SBR and the related President’s Budget are shown in a table
below for Budgetary Resources, Obligations Incurred, Unobligated Balance - Unavailable, and any
related differences. The differences reported are due to differing reporting requirements for expired and
unexpired appropriations between the Treasury guidance used to prepare the SBR and the OMB guidance
used to prepare the President’s Budget. The SBR includes both unexpired and expired appropriations,
while the President’s Budget discloses only unexpired budgetary resources that are available for new
obligations.




                                                    II-38 

                                                             Notes to the Principal Financial Statements
                                            September 30, 2009 and 2008 (Dollar Amounts in Thousands)



(Amounts in Thousands)                                                      2008
                                                                Budgetary          Obligations  Unobligated
                                                                Resources           Incurred     Balance -
                                                                                                Unavailable
Combined Statement of Budgetary Resources                   $    6,605,497 $        6,361,927 $      85,644

Budget of the U.S. Government                               $    6,519,918 $        6,356,942 $       5,050

Difference                                                  $      85,579 $              4,985 $     80,594

Note 14. Undelivered Orders at the end of the Period

In accordance with SFFAS No. 7, "Accounting for Revenue and Other Financing Sources," the amount of
budgetary resources obligated for undelivered orders for the periods ended September 30, 2009 and 2008,
amounted to $11,106,372 and $8,120,099, respectively.

Note 15. Related Party Transactions

The National Science Board (NSB) is a group of 24 members appointed by the President and confirmed
by the Senate. Board Members are drawn from industry and universities. On September 30, 2009, there
were 22 seated members and 2 vacancies. Members of the Board may be affiliated with institutions that
are eligible to receive grants and awards from NSF. The Director of NSF is also a member of the NSB
but does not receive any awards or grants from NSF. In accordance with GAAP reporting requirements,
NSF identifies those transactions as Related Party Transactions and discloses the total awards for those
transactions to the public.

Total new awards issued and the total outstanding balances for Related Party Transactions as of
September 30 are as follows:

(Amounts in Thousands)                                                                  2009         2008

New Awards and Modifications                                                   $        742,399 $    523,575

Total Outstanding at September 30                                              $        855,131 $    604,846





                                                  II-39 

                                                               Notes to the Principal Financial Statements
                                              September 30, 2009 and 2008 (Dollar Amounts in Thousands)


Note 16.   Reconciliation of Net Cost of Operations to Budget

(Amounts in Thousands)                                                           2009             2008
Resources Used To Finance Activities
   Budgetary Resources Obligated
       Obligations Incurred                                                $     9,140,944 $     6,361,927
       Less: Spending Authority from Offsetting Collections and Recoveries        (180,499)       (161,491)
       Obligations Net of Offsetting Collections and Recoveries                  8,960,445       6,200,436
       Less: Offsetting Receipts                                                    (2,091)         (1,038)
       Net Obligations                                                           8,958,354       6,199,398
   Other Resources
       Imputed Financing                                                            10,149           9,048
       Other Resources                                                                (704)           (166)
       Net Other Resources Used to Finance Activities                                9,445           8,882
Total Resources Used to Finance Activities                                       8,967,799       6,208,280
Resources Used to Finance Items Not Part of the Net Cost of Operations
   Change in Budgetary Resources Obligated for Goods, Services and
       Benefits Ordered but Not Yet Provided                                     (2,977,516)      (256,022)
   Resources that Fund Expenses Recognized in Prior Periods                              44           (144)
   Budgetary Offsetting Collections and Receipts that Do Not Affect
       Net Cost of Operations                                                        2,091           1,038
   Resources that Finance the Acquisition of Assets                                (12,120)        (34,945)
Total Resources Used to Finance Items Not Part of the
    Net Cost of Operations                                                       (2,987,501)      (290,073)
Total Resources Used to Finance Net Cost of Operations                           5,980,298       5,918,207
Components of the Net Cost of Operations that will not Require or Generate
   Resources in the Current Period
   Components Requiring or Generating Resources in Future Periods
      Other                                                                             1,548        1,243
   Total Components of Net Cost of Operations that will Require
      or Generate Resources in Future Periods                                           1,548        1,243
   Components Not Requiring or Generating Resources
      Depreciation and Amortization                                                 19,590          25,248
      Other                                                                            944             109
   Total Components of Net Cost of Operations that will not
      Require or Generate Resources                                                 20,534          25,357
Total Components of Net Cost of Operations that Will Not
   Require or Generate Resources in the Current Period                              22,082          26,600
Net Cost of Operations                                                       $   6,002,380 $     5,944,807




                                                      II-40 

                               Required Supplementary Stewardship Information 

                                                 September 30, 2009 and 2008 





Required Supplementary Stewardship Information
                 Stewardship Investments 

   For the Periods Ended September 30, 2009 and 2008 





                         II-41 

                                                              Required Supplementary Stewardship Information
                                                                                September 30, 2009 and 2008


                                              Stewardship Investments

                                            Research and Human Capital


                                            (Dollar Amounts in Thousands)


Research and Human Capital Activities
                                                   2009        2008        2007        2006        2005
   Basic Research                              $ 4,413,407 $ 4,449,062 $ 4,195,444 $ 3,682,266 $ 3,564,093
   Applied Research                                498,544     409,516     432,820     339,757     291,169
   Education and Training                          867,333     911,369     808,642   1,378,472   1,386,952
   Non-Investing Activities                        332,623     283,245     275,993     321,085     292,426
Total Research & Human Capital Activities      $ 6,111,907 $ 6,053,192 $ 5,712,899 $ 5,721,580 $ 5,534,640

Inputs, Outputs and/or Outcomes

Research and Human Capital Activities

   Investments In:
   Universities                                $ 4,340,871 $ 4,189,050 $ 4,016,101 $ 3,994,682 $ 3,970,851
   Industry                                        253,114     251,695     208,696     199,523     223,563
   Federal Agencies                                219,367     256,186     203,759     221,002     143,316
   Small Business                                  209,343     224,793     220,602     218,334     193,199
   Federally Funded R&D Centers                    232,319     229,259     335,731     299,802     278,542
   Non-Profit Organizations                        381,882     444,236     421,775     428,648     418,209
   Other                                           475,011     457,973     306,235     359,589     306,960
                                               $ 6,111,907 $ 6,053,192 $ 5,712,899 $ 5,721,580 $ 5,534,640

   Support To:
   Scientists                                  $    695,389 $   512,147 $   496,431 $   473,457 $   454,053
   Postdoctoral Programs                            252,639     164,519     163,896     158,528     162,132
   Graduate Students                                933,063     615,621     585,308     544,513     538,233
                                                $ 1,881,091 $ 1,292,287 $ 1,245,635 $ 1,176,498 $ 1,154,418

   Outputs & Outcomes:
   Number of:                                       2009          2008        2007        2006       2005
   Awards Actions                                    28,000        23,000      23,000      22,000     22,000
   Senior Researchers                                54,000        43,000      41,000      32,000     32,000
   Other Professionals                               15,000        12,000      13,000      11,000     12,000
   Postdoctoral Associates                            8,000         6,000       6,000       5,000      6,000
   Graduate Students                                 54,000        37,000      35,000      26,000     27,000
   Undergraduate Students                            33,000        24,000      23,000      27,000     33,000
   K-12 Students                                     14,000        13,000      11,000       8,000     11,000
   K-12 Teachers                                     63,000        62,000      61,000      59,000     74,000




                                                       II-42 

                                                         Required Supplementary Stewardship Information
                                                                           September 30, 2009 and 2008


NSF's mission is to support basic scientific research and research fundamental to the engineering process
as well as science and engineering education programs. NSF's Stewardship Investments fall principally
into the categories of Research and Human Capital. For expenses incurred under the Research category,
the majority of NSF funding is devoted to basic research, with a relatively small share going to applied
research. This funding supports both the conduct of research and the necessary supporting infrastructure,
including state-of-the-art instrumentation, equipment, computing resources, and multi-user facilities such
as digital libraries, observatories, and research vessels and aircraft. Basic and applied research expenses
are determined by prorating the program costs of NSF's strategic goals on Research Infrastructure and
Discovery reported on the Statement of Net Cost. The proration uses the basic and applied research
percentages of total estimated research and development obligations reported in the current year Budget
Request to OMB. The actual numbers are not available until later in the following fiscal year. Education
and Training costs equate to NSF's third strategic goal, Learning, and the costs related to Non-Investing
activities reflect the fourth strategic goal, Stewardship.

The data provided for Scientists, Postdoctoral Associates, and Graduate Students are obtained from NSF’s
proposal system and is information reported by each Principal Investigator. The numbers of award actions
are actual values from NSF’s Enterprise Information System (EIS). The remaining outputs and outcomes
are estimates of the total fiscal year 2009 amounts obtained annually from the NSF Directorates. These
estimates are reported in the annual Budget Request to OMB.

NSF's Human Capital investments focus principally on education and training, toward a goal of creating a
diverse, internationally competitive and globally engaged workforce of scientists, engineers and well-
prepared citizens. NSF supports activities to improve formal and informal science, mathematics,
engineering and technology education at all levels, as well as public science literacy projects that engage
people of all ages in life-long learning.




                                                   II-43 

                                       Required Supplementary Information 

                                              September 30, 2009 and 2008 





Required Supplementary Information
               Deferred Maintenance 

For the Periods Ended September 30, 2009 and 2008 





                      II-44 

                                                                      Required Supplementary Information
                                                                             September 30, 2009 and 2008


                                        Deferred Maintenance 

                                    (Dollar Amounts in Thousands) 


NSF performs condition assessment surveys in accordance with FASAB Standards No. 6 and No. 14 for
capitalized property, plant and equipment to determine if any maintenance is needed to keep an asset in an
acceptable condition or restore an asset to a specific level of performance. NSF considers deferred
maintenance to be any maintenance that is not performed on schedule, unless it is determined from the
condition of the asset that scheduled maintenance does not have to be performed. Deferred maintenance
also includes any other type of maintenance that, if not performed, would render the PP&E non-
operational. Circumstances such as non-availability of parts or funding are considered reasons for
deferring maintenance.

NSF considered whether any scheduled maintenance necessary to keep fixed assets of the agency in an
acceptable condition was deferred at the end of the period for fiscal years 2009 and 2008. Assets deemed
to be in excellent, good, or fair condition are considered to be in acceptable condition. Assets in poor
condition are in unacceptable condition and the deferred maintenance required to get them to an
acceptable condition are reported. NSF determines the condition of an asset in accordance with standards
comparable to those used in the private industry. Due to the environment and remote location of
Antarctica, all deferred maintenance on assets in poor condition is considered critical in order to maintain
operational status.

At September 30, 2009, NSF determined that scheduled maintenance on 7 items of Antarctic capital
equipment in poor condition was not completed and was deferred or delayed for a future period. The
largest dollar amount of deferred maintenance for any single item in poor condition approximated $26.
The items include light and heavy mobile equipment. All items are considered critical to NSF operations
and are estimated to require $89 in maintenance.

At September 30, 2008, NSF determined that scheduled maintenance on 14 items of Antarctic capital
equipment in poor condition were not completed and were deferred or delayed for a future period. The
largest dollar amount of deferred maintenance for any single item in poor condition approximated $24.
The items include light and heavy mobile and power distribution equipment, all of which is considered
critical to NSF operations and estimated to require $98 in maintenance.




                                                   II-45 

                                                                Required Supplementary Information
                                                                       September 30, 2009 and 2008




                         Required Supplementary Information
                          Budgetary Resources by Major Budget Accounts


In the following table, NSF budgetary information for the fiscal years ended September 30, 2009 and
2008, as presented in the Statement of Budgetary Resources, is disaggregated for each of NSF’s major
budget accounts. For FY 2009, ARRA funds are shown in a separate schedule.




                                               II-46 

                                                                                                                                         Required Supplementary Information
                                                                                                                                                September 30, 2009 and 2008

                                                               Omnibus Funds Combining Statement of Budgetary Resources (page 1 of 2)
                                                                                              2009
                                                                                      (Amounts in Thousands)
                                                                   Research and                               Major Research       OIG, AOAM, and     Special and
                                                                     Related              Education            Equipment                 NSB           Donated          Total
Budgetary Resources
   Unobligated Balance - Brought Forward, October 1        $               57,084                   18,855             66,433                6,342           94,856 $      243,570
   Recoveries of Prior Year Obligations                                    44,163                   12,953                43                 2,725            2,229           62,113
   Budget Authority
      Appropriation                                                      5,183,100              845,260               152,010              310,030          136,081      6,626,481
      Spending Authority from Offsetting Collections
           Earned
               Collected                                                   95,864                    8,582                     -             5,106                  9      109,561
               Change in Receivable from Federal Sources                       37                     (414)                    -               446                  -           69
           Change in Unfilled Customer Orders
               Advance Received                                            (50,588)              (2,293)                    -                    -                -        (52,881)
               Without Advance from Federal Sources                         58,450                3,191                     -                   (4)               -         61,637
      Anticipated for Rest of Year, Without Advances                             -                    -                     -                    -                -              -
   Subtotal - Budget Authority                                           5,286,863              854,326               152,010              315,578          136,090      6,744,867
   Nonexpenditure Transfers, Net -
      Anticipated and Actual                                                 3,066                       -                     -              148                   -           3,214
   Permanantly Not Available                                               (20,857)                 (9,296)                    -            (3,002)                 -         (33,155)
Total Budgetary Resources                                  $             5,370,319              876,838               218,486              321,791          233,175 $    7,020,609
Status of Budgetary Resources
   Obligations Incurred
       Direct                                              $             5,154,513              847,670               160,756              311,187          145,883 $    6,620,009
       Reimbursable                                                        104,714                9,061                     -                5,498                -        119,273
   Total Obligations Incurred                                            5,259,227              856,731               160,756              316,685          145,883      6,739,282
   Unobligated Balance - Apportioned                                       44,290                      23              57,710                   74           85,062        187,159
   Unobligated Balance - Not Available                                     66,802                20,084                   20                 5,032            2,230           94,168
Total Status Of Budgetary Resources                        $             5,370,319              876,838               218,486              321,791          233,175 $    7,020,609




                                                                                           II-47

                                                                                                                                          Required Supplementary Information
                                                                                                                                                 September 30, 2009 and 2008

                                                                Omnibus Funds Combining Statement of Budgetary Resources (page 2 of 2)

                                                                                               2009

                                                                                       (Amounts in Thousands)

                                                                    Research and                               Major Research       OIG, AOAM, and     Special and
                                                                      Related              Education            Equipment                 NSB           Donated          Total
Change in Obligated Balances
   Obligated Balance, Net
       Unpaid Obligations - Brought forward,
           October 1                                                      6,558,083            1,322,440               176,703               75,722          355,073      8,488,021
           Less: Uncollected Customer Payments from
               Federal Sources Brought Forward, October 1                   (22,973)              (5,266)                    -                 (270)               -        (28,509)
   Total Unpaid Obligated Balance, Net                                    6,535,110            1,317,174               176,703               75,452          355,073      8,459,512
   Obligations Incurred                                                   5,259,228              856,732               160,755              316,683          145,884      6,739,282
   Less: Gross Outlays                                                   (4,670,507)            (758,299)             (149,314)            (312,731)        (146,253)     (6,037,104)
   Less: Recoveries of Prior Year Unpaid
       Obligations, Actual                                                  (44,163)             (12,953)                  (43)              (2,725)           (2,229)      (62,113)
   Change in Uncollected Customer Payments
      from Federal Sources                                                  (58,487)                 (2,777)                    -              (442)                 -      (61,706)
   Subtotal                                                 $             7,021,181            1,399,877               188,101               76,237          352,475 $    9,037,871
   Obligated Balance, Net - End of Period
       Unpaid Obligations                                                 7,102,642            1,407,920               188,101               76,948          352,475      9,128,086
           Less: Uncollected Customer
               Payments from Federal Sources                                (81,461)              (8,043)                    -                 (711)               -        (90,215)
   Total Unpaid Obligated Balance, Net - End of Period      $             7,021,181            1,399,877               188,101               76,237          352,475 $    9,037,871
Net Outlays
    Gross Outlays                                                         4,670,507              758,299               149,314              312,731          146,253      6,037,104
       Less: Offsetting Collections                                         (45,276)              (6,289)                    -               (5,106)              (9)       (56,680)
       Less: Distributed Offsetting Receipts                                      -                    -                     -                    -           (2,091)        (2,091)
Net Outlays                                                 $             4,625,231              752,010               149,314              307,625          144,153 $    5,978,333




                                                                                            II-48

                                                                                                                                      Required Supplementary Information
                                                                                                                                             September 30, 2009 and 2008

                                                               ARRA Funds Combining Statement of Budgetary Resources (page 1 of 2)
                                                                                             2009
                                                                                     (Amounts in Thousands)
                                                                  Research and                             Major Research
                                                                    Related             Education           Equipment                OIG             Total
Budgetary Resources
   Unobligated Balance - Brought Forward, October 1        $                     -                   -                      -                  - $            -
   Recoveries of Prior Year Obligations                                          -                   -                      -                  -              -
   Budget Authority
      Appropriation                                                    2,500,000              100,000               400,000                2,000      3,002,000
      Spending Authority from Offsetting Collections
           Earned
               Collected                                                         -                   -                      -                  -              -
               Change in Receivable from Federal Sources                         -                   -                      -                  -              -
           Change in Unfilled Customer Orders
               Advance Received                                                -                    -                     -                    -              -
               Without Advance from Federal Sources                            -                    -                     -                    -              -
      Anticipated for Rest of Year, Without Advances                           -                    -                     -                    -              -
   Subtotal - Budget Authority                                         2,500,000              100,000               400,000                2,000      3,002,000
   Nonexpenditure Transfers, Net -
      Anticipated and Actual                                                     -                   -                      -                  -              -
   Permanantly Not Available                                                     -                   -                      -                  -              -
Total Budgetary Resources                                  $           2,500,000              100,000               400,000                2,000 $    3,002,000
Status of Budgetary Resources
   Obligations Incurred
       Direct                                              $           2,062,644               85,000               254,000                  18 $     2,401,662
       Reimbursable                                                            -                    -                     -                   -               -
   Total Obligations Incurred                                          2,062,644               85,000               254,000                  18       2,401,662
   Unobligated Balance - Apportioned                                     437,356               15,000               146,000                1,982        600,338
   Unobligated Balance - Not Available                                           -                   -                      -                  -              -
Total Status Of Budgetary Resources                        $           2,500,000              100,000               400,000                2,000 $    3,002,000




                                                                                         II-49

                                                                                                                                       Required Supplementary Information
                                                                                                                                              September 30, 2009 and 2008

                                                                ARRA Funds Combining Statement of Budgetary Resources (page 2 of 2)
                                                                                              2009
                                                                                      (Amounts in Thousands)
                                                                   Research and                             Major Research
                                                                     Related             Education           Equipment                OIG            Total
Change in Obligated Balances
   Obligated Balance, Net
       Unpaid Obligations - Brought forward,
           October 1                                                              -                    -                     -                -                -
           Less: Uncollected Customer Payments from
               Federal Sources Brought Forward, October 1                         -                    -                     -                -                -
   Total Unpaid Obligated Balance, Net                                            -                    -                     -                -                -
   Obligations Incurred                                                 2,062,644               85,000               254,000                18         2,401,662
   Less: Gross Outlays                                                    (26,784)                   (23)                    -              (17)         (26,824)
   Less: Recoveries of Prior Year Unpaid
       Obligations, Actual                                                        -                    -                     -                -                -

   Change in Uncollected Customer Payments
      from Federal Sources                                                        -                    -                     -                -                -
   Subtotal                                                 $           2,035,860               84,977               254,000                 1 $       2,374,838 $
   Obligated Balance, Net - End of Period
       Unpaid Obligations                                               2,035,860               84,977               254,000                 1         2,374,838
           Less: Uncollected Customer
               Payments from Federal Sources                                    -                    -                     -                 -                 -
   Total Unpaid Obligated Balance, Net - End of Period      $           2,035,860               84,977               254,000                 1 $       2,374,838 $
Net Outlays
    Gross Outlays                                                          26,784                    23                      -              17           26,824
       Less: Offsetting Collections                                             -                     -                      -               -                -
       Less: Distributed Offsetting Receipts                                    -                     -                      -               -                -
Net Outlays                                                 $              26,784                    23                      -              17 $         26,824 $




                                                                                          II-50

                                                                                                                                        Required Supplementary Information
                                                                                                                                               September 30, 2009 and 2008

                                                               Omnibus Funds Combining Statement of Budgetary Resources (page 1 of 2)
                                                                                              2008
                                                                                      (Amounts in Thousands)
                                                                   Research and                              Major Research       OIG, AOAM, and     Special and
                                                                     Related              Education           Equipment                 NSB           Donated          Total
Budgetary Resources
   Unobligated Balance - Brought Forward, October 1        $               70,495                18,937               27,600                6,897           94,748 $      218,677
   Recoveries of Prior Year Obligations                                    37,741                13,375                  214                3,571            4,267           59,168
   Budget Authority
      Appropriation                                                      4,843,974              765,600              220,740              297,186          166,434      6,293,934
      Spending Authority from Offsetting Collections:
           Earned
               Collected                                                  107,856                   8,102                     -             5,274                  2      121,234
               Change in Receivable from Federal Sources                  (12,568)                    448                     -              (514)                 -      (12,634)
           Change in Unfilled Customer Orders
               Advance Received                                             20,017                5,176                    -                   50                -         25,243
               Without Advance from Federal Sources                        (27,024)              (4,528)                   -                   32                -        (31,520)
      Anticipated for Rest of Year, Without Advance                              -                    -                    -                    -                -              -
   Subtotal - Budget Authority                                           4,932,255              774,798              220,740              302,028          166,436      6,396,257
   Nonexpenditure Transfers, Net -
      Anticipated and Actual                                                (2,240)                     -                     -                 -                  -         (2,240)
   Permanantly Not Available                                               (36,665)             (11,578)              (15,275)             (2,847)                 -      (66,365)
Total Budgetary Resources                                  $             5,001,586              795,532              233,279              309,649          265,451 $    6,605,497
Status of Budgetary Resources
   Obligations Incurred
       Direct                                              $             4,856,135              767,446              166,846              298,600          170,595 $    6,259,622
       Reimbursable                                                         88,367                9,231                  -                  4,707              -          102,305
   Total Obligations Incurred                                            4,944,502              776,677              166,846              303,307          170,595      6,361,927
   Unobligated Balance - Apportioned                                          133                      6              66,398                 398            90,991        157,926
   Unobligated Balance - Not Available                                     56,951                18,849                   35                5,944            3,865           85,644
Total Status of Budgetary Resources                        $             5,001,586              795,532              233,279              309,649          265,451 $    6,605,497




                                                                                           II-51

                                                                                                                                          Required Supplementary Information
                                                                                                                                                 September 30, 2009 and 2008

                                                                Omnibus Funds Combining Statement of Budgetary Resources (page 2 of 2)

                                                                                               2008

                                                                                       (Amounts in Thousands)

                                                                    Research and                              Major Research       OIG, AOAM, and     Special and
                                                                      Related              Education           Equipment                 NSB           Donated          Total
Change in Obligated Balances
   Obligated Balance, Net
       Unpaid Obligations - Brought forward,
           October 1                                                      6,204,685            1,398,516               222,241              56,757          298,196       8,180,395
           Less: Uncollected Customer Payments from
               Federal Sources Brought Forward, October 1                   (62,564)              (9,346)                    -                (752)               -         (72,662)
   Total Unpaid Obligated Balance, Net                                    6,142,121            1,389,170               222,241              56,005          298,196       8,107,733
   Obligations Incurred                                                   4,944,505              776,677               166,845             303,305          170,595       6,361,927
   Less: Gross Outlays                                                   (4,553,367)            (839,378)             (212,169)           (280,769)        (109,451)     (5,995,134)
   Less: Recoveries of Prior Year Unpaid
       Obligations, Actual                                                  (37,741)             (13,375)                 (214)             (3,571)           (4,267)       (59,168)
   Change in Uncollected Customer Payments
      from Federal Sources                                                  39,592                   4,080                     -              482                   -          44,154
   Subtotal                                                 $             6,535,110            1,317,174               176,703              75,452          355,073 $     8,459,512
   Obligated Balance, Net - End of Period
       Unpaid Obligations                                                 6,558,083            1,322,440               176,703              75,722          355,073       8,488,021
           Less: Uncollected Customer
               Payments from Federal Sources                                (22,973)              (5,266)                    -                (270)               -         (28,509)
   Total Unpaid Obligated Balance, Net - End of Period      $             6,535,110            1,317,174               176,703              75,452          355,073 $     8,459,512
Net Outlays
    Gross Outlays                                                         4,553,367              839,378               212,169             280,769          109,451       5,995,134
       Less: Offsetting Collections                                        (127,873)             (13,278)                    -              (5,323)              (2)       (146,476)
       Less: Distributed Offsetting Receipts                                      -                    -                     -                   -           (1,038)         (1,038)
Net Outlays                                                 $             4,425,494              826,100               212,169             275,446          108,411 $     5,847,620




                                                                                            II-52

                                                                   Other Financial Reporting Information



                       OTHER FINANCIAL REPORTING INFORMATION

Debt Collection Improvement Act of 1996
Net Accounts Receivable totaled $12,286 thousand at September 30, 2009. Of that amount, $11,996
thousand is due from other federal agencies. The remaining $290 thousand is due from the public. NSF
fully participates in the Department of the Treasury Cross-Servicing Program. In accordance with the
Debt Collection Improvement Act, this program allows NSF to refer debts that are delinquent more than
180 days to the Department of the Treasury for appropriate action to collect those accounts. In FY 2004,
OMB issued M-04-10, Memorandum on Debt Collection Improvement Act Requirements which
reminded agencies of their responsibility to comply with the policies for writing-off and closing-out debt.
Based on this memo, NSF has now incorporated the policy of writing-off delinquent debt more than two
years old. Additionally, NSF seeks Department of Justice concurrence for action on items over $100,000.


Cash Management Improvement Act (CMIA)
In FY 2009, NSF had no awards covered under CMIA Treasury-State Agreements. NSF's FastLane
system with grantee draws of cash make the timeliness of payments issue under the Act essentially not
applicable to the agency. No interest payments were made in FY 2009.




                                                   II-53 

